No. ______
IN THE

Supreme Court of the United States
___________________________________________________________
BENJAMIN SMILEY

Petitioner,
v.
STATE OF FLORIDA,
Respondent.
____________________________________________________________

On Petition for a Writ of Certiorari to the
Supreme Court of Florida
______________________________________________________________
PETITION FOR A WRIT OF CERTIORARI
CAPITAL CASE

______________________________________________________________
ROBERT A. NORGARD

Member of the Bar of the
United States Supreme Court
Counsel of Record
Norgard, Norgard & Chastang
P.O. Box 811
Bartow, FL 33831
(863)533-8556
Norgardlaw@verizon.net
Fla. Bar No 322059

CAPITAL CASE
QUESTIONS PRESENTED
1. Does the decision of the Florida Supreme Court in Smiley v. State, 295 So.3d
156 (2020), violate the Eighth Amendment ban on cruel and unusual
punishment and the Fourteenth Amendment guarantee of Equal Protection
where the method of calculating the number of aggravating circumstances by
the jury and trial court and consideration of those aggravating factors by the
jury and trial court and the method of determining and weighing the
mitigating circumstances was a substantial deviation from decades of
precedent and resulted in a sentencing process that was arbitrary, capricious,
and a process that was unfair, inconsistent, and unreliable?
2. Does the decision of the Florida Supreme Court in Smiley v State, 295 So.3d
l56 (Fla. 2020), violate the Sixth Amendment right to a fair trial by an
impartial jury and the Fourteenth Amendment guarantee of equal protection
where the Prosecutor was permitted to inform the jury in voir dire that, of
sixty pending first-degree murder cases in the office, this case was among
only eight or nine in which the State of Florida was seeking the death penalty
thereby denying Petitioner a fair trial by an impartial jury?

i

TABLE OF CONTENTS
Questions Presented ....................................................................................................... i
Table of Contents ........................................................................................................... ii
Table of Authorities ...................................................................................................... iv
Parties to the Proceeding ............................................................................................ vii
Decision Below ............................................................................................................... 1
Jurisdiction .................................................................................................................... 1
Constitutional Provisions Involved ............................................................................... 1
Statement of the Case ................................................................................................... 1
I.

Introduction .............................................................................................. 1

II.

Factual and Procedural Background……………………………………… 3
A.

Conviction and Death Sentence…………………………………… .3

B.

Direct Appeal and Decision Below……….……………………… 10

Reasons for Granting the Writ …………………………………………………………
I.

20

The decision of the Florida Supreme Court in Smiley v. State, 295 So.3d
156 (Fla. 2020) violates the Eighth Amendment ban on cruel and
unusual punishment and the Fourteenth Amendment guarantee of
equal protections where the sentencing procedures approved by the
Florida Supreme Court resulted in a process that unconstitutionally
enhanced the consideration and calculation of the aggravating factors
and unconstitutionally minimized the calculation and weight of the
mitigating circumstances……………………………………………………..20
A. The Florida Supreme Court’s approval of a process where the
jury and trial court considered and weighed a separate and
distinct aggravating factor for each individual prior violent
felony conviction instead of considering a single aggravating
factor for the aggregate number of prior violent felony convictions
resulted in a process that vastly enhanced the aggravation in
this case compared to other case which resulted in a death
sentence that is unreliable……………………………………………...20
1. Historical application of the prior violent felony aggravator
in Florida capital sentencing………………………………………..20
2. The use of the prior violent felony aggravator in
ii

Petitioner’s case……………………………………………………………..24
3. The decision of the Florida Supreme Court is error because
it violates the Eighth Amendment’s ban on cruel and unusual
punishment and the Fourteenth Amendment’s guarantee of
equal protection…………………………………………………………27
B. The Florida Supreme Court’s approval of a process where the
jury was required to consider and make findings of a list of nonstatutory mitigating circumstances and the trial court’s failure to
consider and weigh each non-statutory mitigating circumstance
resulted in a process that undercounted and under weighed the
mitigation in this case resulting in a death sentence that is
unreliable…………………………………………………………………….….29
1. The treatment of mitigating circumstances on the jury
verdict form and by the trial court at sentencing in this
case………………………………………………………………………….29
2. The decision of the Florida Supreme Court is error because it
violates the Eighth Amendment’s ban on cruel and usual
punishment and the Fourteenth Amendment’s guarantee of
equal protection…………………………………………………………..31
II.

The decision of the Florida Supreme Court in Smiley v. State,
295 So.3d 156 (Fla. 2020) violates the Sixth Amendment’s
guarantee of a fair trial by an impartial jury and the
Fourteenth Amendment’s guarantee of equal protection by
unconstitutionally permitting the sentencing jury to be
influenced by the knowledge that the office of the State Attorney
had sixty pending cases, but were seeking the death penalty in
roughly 10% of those, of which this case was one…………………………32
A. Factual Basis………………………………………………………………33
B. Decision of the Florida Supreme Court……………………………….34
C. The decision of the Florida Supreme Court is erroneous where
the actions of the prosecutor violated the Sixth Amendment
right to a fair trial and impartial jury and the Fourteenth
Amendment guarantee of equal protection…………………………...35

Conclusion……………………………………………………………………………………..38
iii

INDEX TO APPENDIX
Exhibit A1 — Florida Supreme Court Opinion……………………………….A1

iv

TABLE OF AUTHORITIES
Cases:

Bevel v. State,………………………………………………………………………26
983 so.2d 505 (Fla. 2008)

Braddy v. State,………………………………………………………………35,36,37
111 So.3d 810 (Fla. 2012)

Bright v. State……………………………………………………………………….21
90 So.3d 249 (Fla. 2012)

Brooks v. Kemp,…………………………………………………………………….37,38
762 F.2d 1383 (11th Cir. 1989)

Brooks v. State,…………………………………………………………………..35.36.37
762 So.2d 879 (Fla. 2000)

Clements v. Flashing,……………………………………………………………….28
457 U.S. 958, 103 S.Ct. 2836, 73 L.Ed.2d 508 (1982)

Furman v. Georgia……………………………………………………………….21,22
408 U.S. 238 (1972)

Ferrell v. State,…………………………………………………………………35,36,37
29 So.3d 959 (Fla. 2010)

Hurst v. Florida, ……………………………………………………………………22,38
136 S.Ct. 616 (2016)

Hurst v. State,…………………………………………………………………………..22
202 So.3d 40 (Fla. 2017)

In re Standard Jury Instructions in Capital Cases,………………………17,22
214 So.3d 1236 (Fla. 2017)

In re Standard Jury Instructions in Capital Cases,……………………….19,30
244 So.3d 172 (Fla. 2018)

Paitt v. State,………………………………………………………………………..35,36,37
112 So.2d 380 (Fla. 1959)

Proffitt v. Florida,……………………………………………………………………..20
428 U.S. 242, 96 S.Ct. 2960, 49 L.Ed.2d 913 (1976)
v

Richardson v. State,…………………………………………………………………11
246 so.2d 771 (Fla. 1971)

Smiley v. State, …………………………………………………………………….passim
295 So.3d 156 (Fla. 2020)

Songer v. State,………………………………………………………………………….31
365 So.2d 696 (Fla. 1978)

State v. Poole,……………………………………………………………………………22
277 So.3d 487 (Fla. 2020), petition docketed, (U.S. September 1, 2020)
Tuilaepa v. California,………………………………………………………….27,28,31
512 U.S. 967, 114 S.Ct. 2630, 129 L.Ed.2d 750 (1994)

Zant v. Stephens,……………………………………………………………………….28
462 U.S. 802, 103 S.Ct. 2733, 77 L.Ed.2d 235 (1983)
Statutes and Rules:
28 U.S.C. §1257(a) ........................................................................................ ..1
Fla. Statute. §921.141 ……………………………………………………………..21
.
Fla. R. Crim. P. 3.220……………………………………………………………..12

vi

PARTIES TO THE PROCEEDINGS
Petitioner, Benjamin Smiley, a death-sentenced Florida prisoner, was the
appellant in the Florida Supreme Court.
Respondent, the State of Florida, was the appellee in the Florida Supreme
Court.

vii

DECISION BELOW
The decision of the Florida Supreme Court is reported at Smiley v. State, 295
So.3d 156 (Fla. May 14, 2020), and is reprinted in the Appendix (App.) at A1.
JURISDICTION
The judgment of the Florida Supreme Court was entered on May 14, 2020 (
App. A1). This Court has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment provides, in relevant part:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law; and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining
witnesses in his favor; and to have the Assistance of Counsel
for his defense.
The Eighth Amendment provides:
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishment inflicted.
The Fourteenth Amendment provides, in relevant part:
No State shall . . . deny to any person within its jurisdiction
the equal protection of the laws.
STATEMENT OF THE CASE
I.

Introduction
Petitioner Benjamin Smiley’s death sentence was obtained in violation of the

Sixth, Eighth, and Fourteenth Amendments to the United States Constitution. The
penalty phase and sentencing practices used in this case and approved by the

Florida Supreme Court are inconsistent with the framework of the Eighth
Amendment’s ban on cruel and unusual punishment and the Fourteenth
Amendment’s guarantee of equal protection.

As a result of the Florida Supreme

Court decision, Petitioner is the only individual to have been sentenced to death in
the State of Florida since the inception of Florida’s death penalty statues post-

Furman after a shocking deviation from forty-seven years of precedent setting forth
how aggravating factors are considered by both the jury and judge.
The Florida Supreme Court’s decision is inconsistent with the Eighth
Amendment’s ban on cruel and usual punishment, and the Fourteenth
Amendment’s guarantee of equal protection when it approved the jury’s finding of
non-statutory mitigation from a list provided on the verdict form and absolved the
trial court’s failure to consider and weigh each non-statutory mitigating
circumstance instead of improperly lumping them all together.
The Florida Supreme Court decision which upheld improper comments by the
State during voir dire which informed the jury that of sixty pending first-degree
murder prosecutions this case was one of only eight or nine that was death penalty
eligible unconstitutionally tainted the jury recommendation by informing the jury
that a vote to impose a death sentence has the imprimatur of the State’s greater
wisdom and higher authority and is inconsistent with the Sixth Amendment’s
guarantee of a fair trial and the Fourteenth Amendment’s guarantee of due process.
This Court should consider the constitutionality of the Florida Supreme
Court’s deviation from decades of capital sentencing jurisprudence.

II.

Factual and Procedural Background
A. Conviction, and Death Sentence
On October 6, 2016, a jury found Petitioner guilty of the first-degree felony

murder of Clifford Drake, robbery with a firearm of Mark Wilkerson, aggravated
assault with a firearm of Mark Wilkerson, and burglary of a dwelling with an
assault or battery while armed with a firearm, as charged in the Indictment
brought by the State of Florida on July 15, 2015.
Guilt Phase
The facts, as reflected in the opinion of the Florida Supreme Court, Smiley v.
State, 295 So.3d 156 (Fla. May 14, 2020), established that Mark Wilkerson resided
in a home located in Lakeland, Polk County, Florida with his brother, Mario
Wilkerson, their mother, and stepfather, Clifford Drake. Late at night on April 15,
2013, Mark Wilkerson was approached in his yard by two men he did not recognize,
both wearing dark sweatshirts. The smaller of the men, later identified as the
Petitioner, pointed a gun at Mark Wilkerson. The men climbed a fence and the
Petitioner ordered Mark Wilkerson to disrobe and get on the ground.

The

Petitioner demanded Mark Wilkerson tell him where his stepfather, Clifford Drake,
kept his safe. The Petitioner went through Mark Wilkerson’s clothing, taking a cell
phone, a small amount of cash, and a key to the house. Petitioner forced Mark
Wilkerson to enter the home at gun point. The three men entered the home and
Mark Wilkerson led them to Clifford Drake’s bedroom. Petitioner entered the dark
bedroom, but was unable to find the safe. Petitioner then ordered Mark Wilkerson

to enter the bedroom and turn on the light. Petitioner then struck the still-sleeping
Clifford Drake in the head with the gun. Clifford Drake woke up and scooted on the
bed while Petitioner shouted at him to disclose the location where he kept his
money. Clifford Drake denied having any money and Petitioner shot him in the hip.
Seconds later Petitioner shot Clifford Drake in the head. Petitioner then ransacked
the bedroom with Mark Wilkerson’s help until the second, taller man alerted
Petitioner that someone was coming. Petitioner then ordered Mark Wilkerson to the
ground and the men fled from the house. A backpack was left at the home and a
sweatshirt was found in a dumpster nearby.
The bullets recovered from the scene were forensically matched to bullets
recovered from the scene of another nearby shooting that occurred less than a
month earlier. The case remained cold for two years.
In 2015, police learned that DNA recovered from the backpack and the
sweatshirt matched Petitioner’s DNA.
Police then revisited phone records and determined that minutes after the
Drake murder, Mark Wilkerson’s cell phone had been used in a three-way call
between Petitioner, his cousin, John McDonald, and his aunt, Samantha Lee.
McDonald testified at trial that he learned during a card game that Clifford
Drake kept money in a safe in the house. McDonald, Lee, and Petitioner hatched a
plan to rob Drake. On the night of the murder McDonald picked up Petitioner and
“Big Jit” from Lee’s house. The plan called for Petitioner and now Big Jit to carry
out the robbery, then McDonald would pick them up afterward. McDonald testified

he dropped the two men off and watched them walk to the Drake home, but left
when he saw Mark Wilkerson ride by on a bicycle. McDonald eventually got a call
from Lee, who patched in Petitioner on a three-way call so McDonald and Petitioner
could find each other. McDonald testified that when Petitioner got into the car he
was angry because it was a “blank mission” and that “the dude that was asleep
looked like he was reaching for something and he [Petitioner] shot him.”
Petitioner testified at trial. He acknowledged the relationship with McDonald
and Lee and admitted to being friends with “Big Jit” (whose real name was Casey
Bisbee). He denied participating in or being part of any plan to rob Clifford Drake.
He denied being present in Lakeland on the night of the murder.
Penalty Phase
Penalty phase was conducted in April 2017 with a different jury. The State
presented testimony of Petitioner’s participation in the March 2013 murder of
Carmen Riley. John McDonald testified he, Samantha Lee, and Petitioner planned
to rob Riley after McDonald targeted her. Petitioner’s role was to carry out the
robbery and McDonald was the driver. After the robbery Petitioner told McDonald
that he shot Riley because she refused to cooperate. Samantha Lee testified that
after leaving the Riley residence she heard Petitioner say that he had to shoot Riley
because she was a fighter. The same revolver used in the Riley murder was used
two weeks later in the Drake murder.
Because a different jury was impaneled, the State also presented evidence
from the investigating police officers, Samantha Lee, and John McDonald relevant

to the Drake murder.
The defense case for mitigation focused on the sharp contrast between
Petitioner’s behavior and mental state after he suffered two brain aneurysms in
September 2012, less than a year before the murders of Drake and Riley. Medical
records documented the severity of these aneurysms. Dr. Alan Waldman, a
neuropsychiatrist, testified Petitioner suffered severe damage to the part of his
brain that affect behavior and impulse control as a result of the rupture.

In

particular, after the rupture, Petitioner had problems with rage control. A second
expert, Dr. Hartig, hired by the defense but called by the State, similarly testified
the ruptured aneurysms constituted a severe brain trauma. She testified Petitioner
performed well on personality tests and had an IQ score of 114.
The expert witness testimony was corroborated by testimony from
Petitioner’s family and friends. Mr. Smiley’s mother and Samantha Lee testified
that Petitioner developed a bad temper, had severe mood swings, and would rant on
social media about insignificant things after the ruptures- all of which were out of
character. Lee described Petitioner after the ruptures as “just wild”.
Petitioner’s mother, Mrs. Grandberry, testified Petitioner did not receive the
necessary follow-up treatment after he was released from the hospital. He moved in
with Samantha Lee after his release because the Grandberry’s would not allow his
girlfriend to live with them. Mrs. Grandberry was very concerned about Lee. She

did felt Lee was a bad influence because she dealt drugs and did things that were
illegal to support herself.
Petitioner’s childhood was not without difficulty. He did not have a
relationship with his biological father until age 18. Petitioner was raised by his
mother and stepfather, who married when he was an infant. The family was
devoutly religious and strict rules were enforced. The children were not allowed cell
phones, to spend the night with friends, or go to parties. Corporal punishment was
used to enforce discipline. Petitioner attended a private, Christian school until just
before graduation. He then transferred to public school, but was unable to graduate
due to problems with the transfer of credits. Petitioner was able to obtain his GED.
Petitioner participated in school sports, wrote the school newsletter, had good
grades, was involved with community service projects through church, and
participated in a mentorship program. Due to the rigid rules of the household,
Petitioner moved out at age 16. From that time forward he lived different places,
including with Samantha Lee.
Michael Clayton, a former NFL football player and founder of Generation

Next, an organization created to support young black men, mentored Petitioner
through that organization. Mr. Clayton testified that Petitioner changed
significantly after the ruptures. He was very different after, a person Mr. Clayton
could no longer mentor and guide. Petitioner became challenging and prone to
provocation. Petitioner would rant and rage over minor things.

The State argued, in a significant departure from established Florida law,
that the jury could consider one separate aggravating factor for each of the prior or
contemporaneous felony convictions instead of single aggravating factor of a prior
capital conviction or prior violent felony conviction. The State argued there were
eight aggravators- five premised on prior convictions, instead of one aggravating
factor of prior violent felony conviction- that Petitioner had been convicted of
another capital felony; the murder occurred during the course of a felony (burglary
and robbery), and that the murder was committed for pecuniary gain. The jury was
instructed they were to consider each prior conviction as a separate aggravator and
the penalty phase verdict form required the jury to make a finding on each separate
prior conviction.

Defense counsel did not object to the State’s argument, the

instructions, or the verdict form.
The jury unanimously found the following aggravators were proven beyond a
reasonable doubt on a verdict form which deviated from the form approved by the
Florida Supreme Court: (1) Petitioner was previously convicted of another capital
murder, the murder of Carmen Riley; (2) Petitioner was previously convicted of a
felony involving use of threat or violence, robbery with a firearm of Riley; (3)
Petitioner was previously convicted of a prior violent felony, robbery with a firearm
of Mark Wilkerson; (4) Petitioner was previously convicted of a prior violent felony,
aggravated assault of Mark Wilkerson; (5) Petitioner was previously convicted of a
prior violent felony, robbery of Mark Wilkerson; (6) Petitioner committed the Drake
murder while involved in the commission of a robbery regarding Mark Wilkerson;

(7) Petitioner committed the Drake murder while engaged in the commission of a
burglary with an assault or battery while armed with a firearm regarding Clifford
Drake and Mark Wilkerson; and (8) Petitioner committed the murder for pecuniary
gain.
The jury was also required to make specific findings on Petitioner’s proposed
statutory and non-statutory mitigating circumstances, a deviation from the
standard verdict form approved by the Florida Supreme Court:

no significant

history of prior criminal activity 5 yes to 7 no; the capital felon was committed while
the defendant was under the influence of extreme mental of emotional disturbance,
0 to 12; the capacity of the defendant to appreciate the criminality of his conduct or
conform his conduct to the requirements of the law was substantially impaired, 0 to
12; age at the time of the crime, 0 to 12; mitigation relevant to the defendant’s
character, 7 to 5; mitigation relevant to defendant’s background, 0 to 12; mitigation
relevant to the life of the defendant, 0 to 12; and mitigation related to the
circumstances of the offenses, 1 to 11.
The jury unanimously recommended a death sentence.
A Spencer hearing was conducted on November 13, 2017.

The State

presented no additional evidence. Petitioner called Dr. Hartig. Dr. Hartig testified
to evidence related to mitigation. She discussed: (1) Petitioner’s lack of a
relationship with his biological father; (2) lack of relationship with his stepfather;
(3) Petitioner being subjected to corporal punishment; (4) Petitioner running away
from home and being essentially homeless; (5) Petitioner’s persistence in pursuing

his high school education despite his circumstances; (6) Petitioner’s employment
and work ethic; (7) Petitioner’s aneurysms; (8) lack of juvenile criminal history; (9)
remorse for victims. Dr. Hartig also testified Petitioner seemed to lack problem
solving abilities due to the traumatic brain event.
The judge found eight aggravating circumstances had been proven beyond a
reasonable doubt during Petitioner’s penalty phase. The trial court merged one and
two and gave that aggravator great weight. The trial court merged five and seven,
giving the second aggravator moderate weight; then merged three and six, giving
this aggravator great weight. The trial court gave four no weight and gave eight
substantial weight.

1

Based on his fact-finding, the judge sentenced Petitioner to

death.
B.

Direct Appeal-Decision Below
On May 14, 2020, the Florida Supreme Court issued an opinion affirming the

conviction and sentence. App. A1-20, Smiley v. State, 295 So.3d 156 (Fla. 2020).
The Florida Supreme Court’s opinion held Petitioner was not entitled to relief on
The aggravating circumstances found by the judge were: (1) a previous
conviction for a capital felony; (2)-(6) the defendant was previously convicted of a
prior violent felony [one prior convictions related to Riley four related to the Drake
murder]; (7) the crime was committed during the commission of a burglary of a
dwelling with an assault or battery while armed; and (8) the first-degree murder
was committed for pecuniary gain.
The mitigating circumstance found by the judge was: (1) no significant
history of criminal activity (moderate weight); (2) the defendant was under the
influence of an extreme mental or emotional disturbance at the time of the crime
(little weight); (3) capacity to appreciate the criminality of conduct and conform
conduct to the requirements of the law was substantially impaired (little weight);
(4) age at time of crime (little weight); (5) existence of any other factors in
defendant’s character, background, life, or the circumstances of the offense that
would mitigate against the imposition of the death penalty (moderate weight).
1

the four guilt phase issues and five penalty phase issues raised. The appellate
issues and the Florida Supreme Court’s basis for denial are summarized as follows:

Issue I: The trial court erred in finding the State did not commit a discovery
violation and failed to make adequate findings under Richardson v. State, 246 So.2d
771 (Fla. 1971).
In Issue I Petitioner argued the State’s disclosure for the first time on the
fifth and final day of trial of a photo (State’s Exhibit 161) seen by a detective a year
before trial from Petitioner’s Facebook page was a discovery violation. Exhibit 161
was not downloaded or identified as evidence until after Samantha Lee testified.
The State alleged Lee gave the state attorney the photo after her testimony.
Defense counsel objected and argued the defense was prejudiced by the late
disclosure because Exhibit 161 was different than previously disclosed Exhibit 162
in that it highlighted differences in Petitioner’s height, weight, and skin complexion
with that of the co-perpetrator, Casey Bisbee, aka “Big Jit”. The State
acknowledged Exhibit 161 better supported the State’s case than the previously
disclosed Exhibit 162. Defense counsel argued that detective’s knowledge of the
photo on the Facebook page was imputed to the State. The defense theory of the
case was that Bisbee was the shooter and that Petitioner was not involved in the
murder of Mr. Drake. Defense counsel did not make a specific reference to the rule
of criminal procedure governing the State’s discovery obligation, Fla. R. Crim. P.
3.220. On appeal Petitioner argued the State committed a discovery violation as the
viewing of the photo by the detective a year previous was charged to the State and
that the State was required to disclose even items obtained from the a defendant

under Rule 3.22(b)(1)(F). Petitioner argued he was procedurally prejudiced because
to the extent the physical dissimilarities between Petitioner and Big Jit were a
material issue at trial and had the defense known the State intended to use Exhibit
161, trial preparation and strategy would have been different.
The Florida Supreme Court held there was no discovery violation because
trial counsel failed to make a specific objection that the prosecutor had a continuing
duty to disclose any tangible objects that were obtained from or belonged to the
defendant under Fla. R. Crim. P. 3.220(b)(1)(F). The Florida Supreme Court ruled
defense counsel’s general objection had been under Rule 3.22(b)(1)(K) or (J). The
Florida Supreme Court further found that even if the State had committed a
discovery violation, it would conclude beyond a reasonable doubt that Petitioner
suffered no procedural prejudice. The Florida Supreme Court held that Petitioner
should have been aware that the State had possession of Exhibit 161 and that the
State had viewed Petitioner’s Facebook page. The Florida Supreme Court held
Petitioner should have anticipated the State would potentially use other means
besides Exhibit 162 to present evidence of the differences between Petitioner and
Big Jit and should have prepared accordingly. The Florida Supreme Court found no
abuse of discretion by the trial court’s ruling no discovery violation had occurred.

Issue II: Exhibits 161 and 162 were erroneously admitted without proper
authentication and where the prejudicial impact outweighed the probative value.
Petitioner argued the State failed to properly authenticate Exhibits 161 and
162 because there was no testimony about who took the pictures, when the photos
were taken, where the photos were taken, and how the photos was generated to

Petitioner’s Facebook page or maintained there. Exhibit 161 was not removed from
Facebook by the testifying witness and that witness had no idea where the copy of
the photograph given to the State came from. The Florida Supreme Court found no
error in the authentication of the photos because the testifying witness could
identify both individuals in the photos and he had seen both photos on Petitioner’s
Facebook page. Additionally, Petitioner did not dispute that he and Bisbee were
depicted in the photos when cross-examined by the State.
Petitioner argued the prejudicial impact of the photos outweighed their
probative value because in Exhibit 161 Petitioner was holding a liquor bottle and
Bisbee is gesturing as if he had a gun. In Exhibit 162 Petitioner is making a similar
gun gesture and Bisbee is holding what appears to be a blunt.
The Florida Supreme Court found there was no error in the admission of the
two photos because the photos supported the State’s theory of the case that
Petitioner and Bisbee were friends and the identity and appearance of Petitioner’s
accomplice to the crimes were material issues in the case. Further, the photos may
have been unflattering, but were not inflammatory or improperly directed at the
jury’s emotions.

Issue III: Reversible error occurred when co-perpetrator John McDonald
testified on cross-examination that he knew Petitioner had gloves with him in the
Drake murder because “…we normally operate like that, we normally use gloves.”
Petitioner argued defense counsel’s motion for mistrial after McDonald’s
improper comments should have been granted because the comments were
indicative of a pattern of uncharged criminal conduct, resulting in undue prejudice.

The Florida Supreme Court denied relief, finding defense counsel invited the
response and declined a curative instruction. Further, the Florida Supreme Court
found the reference was vague, lacked details about other crimes, and did not rise to
the high legal standard which justifies a mistrial.

Issue IV: Reversible error occurred when John McDonald testified Petitioner
was facing the death penalty as a reason that he considered changing his testimony
to deny any involvement in the Drake murder.
Petitioner argued it was reversible error for McDonald to have informed the
jury the State was seeking the death penalty in this case when the parties had
agreed that the impaneled jury for guilt phase would not be informed of the possible
penalty and had not been death qualified as required under Florida statutes and
rules governing capital cases.

The Florida Supreme Court held the “fleeting

isolated comment” did not meet the high standard for a mistrial.

Issue V: The prosecutor’s statements during voir dire that her office had 60
pending first-degree murder cases and only nine of them were death eligible and
that meant that even if you were charged with first-degree murder your case would
not automatically qualify as one in which the death penalty would be sought was
reversible error.
Petitioner argued that the prosecutor’s statements in voir dire were
sufficiently prejudicial to have required the striking of the venire panel, as defense
counsel ultimately requested. The Florida Supreme Court stated it did not condone
the comments, cautioning prosecutors to discuss the concept that not every case is
death eligible without telling the jury that the government seeks death in only a
subset of first-degree murder cases. However, the Florida Supreme Court concluded
the context in which the comments were made was not to direct an appeal to the

jury give weight to the decision made by the State to seek death and fell short of
what would be required to justify striking the venire.

Issue VI: Reversible error occurred when the penalty phase jury heard
testimony that Petitioner possessed and discharged a firearm after the guilt phase
jury failed to make those special findings present on the verdict form as to Counts 2,
4, and 5 of the Indictment.
Petitioner argued that because the jury failed to make specific findings
delineated on the guilt phase verdict form that Petitioner possessed or discharged a
firearm precluded presentation of evidence in the penalty phase that Petitioner
actually possessed and discharged a firearm.

The guilt phase jury, after

determining what level of offense had been committed, was asked to find specifically
whether or not Petitioner had actual possession of a firearm by checking that
finding and was instructed on the verdict form that if none applied, to leave the
special findings blank on counts 2, 4,and 5. The jury left each of the special findings
blank, but convicted Petitioner “as charged” as to each count, including Count 1.
Petitioner argued in the trial court that the jury verdict was consistent with the
defense position that Bisbee, not Petitioner, was the actual shooter and that, if
anything, Petitioner was the second man since the victim could not identify the
actual shooter.

On appeal Petitioner argued that criminal jury verdicts are

required to be certain and devoid of ambiguity. The guilt phase jury’s failure to
make specific findings as required on the guilt phase jury verdict form and by
leaving them blank was either unclear or consistent with the verdict form that if
none applied, no boxes on the special findings were to be checked.

The Florida Supreme Court concluded the argument was without merit
because the jury’s verdict was “as charged in the Indictment” and Count 1 of the
Indictment alleged Mr. Drake was killed by shooting with a firearm. The Florida
Supreme Court concluded that by finding Petitioner guilty on Count 1, the guilt
phase jury made the requisite finding. The Florida Supreme Court acknowledged
the failure of the guilt phase jury to make special findings on the remaining counts,
noting it was not clear why the guilt phase jury failed to do so.

The Florida

Supreme Court speculated the failure may have been viewed as redundant by the
guilt phase jury, or that the guilt phase jury may have believed the special findings
related to only one victim.

Issue VII: The closing arguments of both the prosecutor and defense counsel
were so fraught with error as to deny Petitioner a fair trial under the 5 th, 6th, and
8th Amendments to the United States Constitution.
State Closing Argument: Petitioner argued the State improperly commented
on Petitioner’s exercise of his right to trial; argued for an uncharged aggravating
factor; likened this case to Jeffery Dahmer; identified deterrence as a rationale for
the death penalty, made improper Golden Rule arguments; and told the jury
sympathy could play no role in their determination of whether death was
appropriate. Petitioner also argued the State improperly misstated the law on
mitigation, denigrated his mitigation evidence, and sought to treat the mitigating
evidence as nonstatutory aggravation.

The Florida Supreme Court held these

statements were not error when taken in context.

Petitioner also argued the State’s argument this case had eight aggravating
factors was error under existing Florida law. The Florida Supreme Court found this
argument was not objected to and did not fatally skew the jury’s weighing of
aggravators and mitigators.
Defense Closing Argument:

Petitioner argued defense counsel rendered

ineffective assistance of counsel during his closing argument when he conceded
eight or nine aggravators had been proven and told the jury to vote for the death
penalty; stated Petitioner was part of a continuing criminal enterprise; and
conceded portions of the State’s argument that brain aneurysms are not mitigation.
The Florida Supreme Court did not address this claim, instead deferring these
questions to post-conviction.

VIII: Reversible error occurred when the verdict form and trial court’s jury
instructions allowed the jury to treat each of Petitioner’s five prior violent felony
convictions as separate aggravators instead of a single aggravator. Petitioner
further argued the verdict form should not have required the jury to vote on each
mitigating circumstance individually.
Petitioner argued the penalty phase verdict form and jury instructions in this
case deviated from those approved by the Florida Supreme Court just prior to his
trial in In re Standard Jury Instructions in Criminal Cases, 214 So.3d 1236 (Fla.
2017). Petitioner argued that Florida law permitted a single aggravating factor,
that the defendant has prior violent felony convictions, irrespective of the number of
actual convictions. Thus, Petitioner’s five prior violent felony convictions stemming
from the Riley and Drake cases would count as a single aggravating factor instead
of six separate and distinct aggravating factors. The number of prior convictions

could be considered in the weight assigned to this single aggravating factor.
Petitioner argued that instructing the penalty phase jury to consider each prior
conviction as a separate and distinct aggravating factor was contrary to established
Florida law and precedent, prejudiced him by overstating the number of
aggravating factors actually present in this case, and resulted in a failure to
properly narrow the class of cases in which death was appropriate and was
arbitrary and capricious. Petitioner argued this was fundamental error because
defense counsel did not object to the deviation from the established practices of
forty-seven years.
The Florida Supreme Court found no error in this process, finding a separate
voting on each underlying conviction could add clarity to the jury’s findings and
could be helpful if any of the prior convictions were subsequently invalidated.
The Florida Supreme Court rejected Petitioner’s argument that the
presentation of this case as having eight aggravating factors instead of two
aggravating factors that would apply under the law, holding that presumably the
jury could find only a single aggravating circumstance, but could give it greater
weight based on the existence of multiple convictions. The Florida Supreme Court
concluded the jury instruction in this case that the jury could consider each prior
conviction as a separate, distinct aggravating factor was error, but the error fell
short of being fundamental error.
Petitioner argued the penalty phase verdict form erroneously required the
jury to vote on each mitigating circumstance delineated on the verdict form.

Petitioner argued this was error because it impermissibly limited mitigation to only
those circumstances enumerated on the verdict form and that this practice was
contrary to the standard verdict form adopted after Petitioner’s penalty phase in In

re Standard Criminal Jury Instructions in Capital Cases, 244 So.3d 172 (Fla. 2018).
The Florida Supreme Court found no merit to this claim.

Issue IX: Multiple deficiencies in the trial court’s sentencing order required
reversal.
Petitioner argued the trial court failed to perform an Enmund/Tyson analysis
due to lack of clarity in the jury verdict as to which of the two men present at the
time of the murder actually killed Mr. Drake. The Florida Supreme Court rejected
this claim, finding the guilt phase verdict sufficiently established Petitioner was the
actual shooter.
Petitioner argued the trial court improperly over counted the number of
aggravating factors, finding there were five instead of the two permitted by statute.
The Florida Supreme Court found “any error in the trial court’s merger analysis
was harmless” because the trial court found this to be a highly aggravated case. The
Florida Supreme Court dismissed any concerns that the trial court overstated the
number of aggravating factors because the facts supporting those aggravating
factors would have added sufficient weight to support the trial court’s findings if the
number of aggravating factors were reduced.
Petitioner argued the trial court’s sentencing order failed to consider each
proposed nonstatutory mitigating circumstance. The Florida Supreme Court found
the trial court’s sentencing order did not address the nonstatutory mitigating

circumstances with the specificity required under decisional precedent because the
nonstatutory mitigation was not so substantively similar that it could be grouped
into catch-all categories the trial court used. The Florida Supreme Court considered
this error to be harmless.
REASONS FOR GRANTING THE WRIT
I. THE DECISION OF THE FLORIDA SUPREME COURT IN SMILEY V.
STATE, 295 So. 3d 156 (Fla. 2020), VIOLATES THE EIGHTH
AMENDMENT BAN ON CRUEL AND UNUSUAL PUNISHMENT AND
THE FOURTEENTH AMENDMENT GUARANTEE OF EQUAL
PROTECTION
WHERE
THE
SENTENCING
PROCEDURES
APPROVED BY THE FLORIDA SUPREME COURT RESULTED IN A
PROCESS
THAT
UNCONSTITUIONALLY
ENHANCED
THE
CONSIDERQATION AND CALCULATON OF THE AGGRAVATING
FACTORS
AND
UNCONSTITUIONALLY
MINIMZED
THE
CALCULATION
AND
WEIGHT
OF
THE
MITIGATING
CIRCUMSTANCES.
A. The Florida Supreme Court’s Approval of a Process Where the Jury and Trial
Court Considered and Weighed a Separate and Distinct Aggravating Factor For
Each Individual Prior Violent Felony Conviction Instead of Considering a Single
Aggravating Factor For the Aggregate Number of Prior Violent Felony
Convictions Resulted in a Process That Vastly Enhanced the Aggravation in
This Case Compared to Other Cases Which Resulted in a Death Sentence That
Is Unreliable and Failed to Adequately Narrow the Class of Persons Subject to
Capital Punishment
1. Historical application of the prior violent felony aggravator in Florida
capital sentencing
Pre-Hurst
Florida’s death penalty statute enacted subsequent to Furman v. Georgia,
408 U.S. 238 (1972), delineated the method by which death eligibility would be
determined in order to satisfy Furman’s constitutional mandate and was found to
be constitutional in Proffit v. Florida, 428 U.S. 242, 96 S.Ct. 2960, 49 L.Ed.2d 913
(1976). Florida Statute Section 921.141 identifies the statutory aggravators the

State may use to support a death sentence. The defendant’s prior conviction of a
violent felony is one of those enumerated statutory aggravators.
The Standard Jury Instruction for the prior violent felony aggravator read:
The capital felony was committed by a person previously convicted of
[another capital felony][a felony involving the [use][threat] of violence
to the person].
The jury was then instructed by the trial court what prior convictions of the
defendant qualified as a prior capital felony or prior violent felony.
Since the inception of Florida’s death penalty in 1973, post-Furman juries, in
their advisory role, considered a single aggravating factor of prior violent felony
conviction irrespective of the number of prior violent felony convictions a defendant
had. The jury could assign weight to the single aggravating factor to account for
multiple prior violent felony convictions.

Thus, a jury considering a sentencing

recommendation for a defendant with three prior violent felony convictions was
instructed and would have considered a single aggravating factor, not three
separate and distinct aggravating factors. Then the jury determined what weight to
give that single aggravating factor. Under Florida case law “[i]f a defendant has
multiple convictions for prior violent felonies, the trial court can only find a single
aggravating circumstance, but it may give that circumstance greater weight based
on the existence of multiple convictions.” Bright v. State, 90. So.3d 249, 261 (Fla.
2012)
Post-Hurst

In 2016, this Court invalidated Florida’s death penalty sentencing scheme,
holding the jury, not judge, is constitutionally required to find the facts necessary to
support a death sentence and not serve in an advisory capacity to the trial court in

Hurst v. Florida, 136 S.Ct. 616 (2016). In response, the Florida Supreme Court in
Hurst v. State, 202 So.3d 40, 54 (Fla. 2017), held that in addition to finding the
existence of any aggravating factor, the jury also had to unanimously find the
aggravating factors are sufficient for the imposition of death and unanimously find
that the aggravating factors outweigh the mitigation before a sentence of death can
be considered by the judge.2

The Florida legislature subsequently enacted Ch.

2017-1, Laws of Florida, which went into effect on March 13, 2017. Approximately
30 days later, the Florida Supreme Court approved criminal jury instructions for
capital sentencing proceedings in In Re Standard Jury Instructions in Capital

Cases, 214 So.3d 1236 (Fla. 2017). With regard to aggravating factors, the jury
instruction states:
An aggravating factor is a standard to guide the jury in making the
choice between recommending life imprisonment without the possibility
of parole or death. It is a statutorily enumerated circumstance that
increases the gravity of a crime or the harm to a victim.
In the Final Instructions in Penalty Phase Proceedings- Capital Cases, the
newly adopted standard jury instruction again told the jury an “aggravating factor
is a circumstance that increases the gravity of a crime or the harm to a victim. No

2

The Florida Supreme Court has subsequently overruled Hurst v. State, 202 So.3d 40 (Fla. 2017), in State v. Poole,
297 So.3d 487 (Fla. 2020), cert. petition docketed, (U.S. September 1, 2020). Poole reversed Hurst’s requirement of
jury unanimity in the jury recommendation of death and unanimous jury findings as to all the aggravating factors
that were proven beyond a reasonable doubt, that the aggravating factors are sufficient to impose death, and that
the aggravating factors outweigh the mitigating circumstances.

facts other than proven aggravating factors may be considered in support of a death
sentence.” Fla. Standard Jury Instruction 7.11(a).
The newly adopted jury instructions made no changes to the jury instruction
defining the prior violent felony aggravator or to the trial judge’s instruction to the
jury delineating which of the defendant’s prior convictions were classified as either
a capital or prior violent felony.
Finally, the newly adopted instructions informed the jury that they would be
required to weigh the aggravating factors and the mitigating circumstances. The
jury instructions advised the jury that certain aggravating circumstances would
merge with each other and that if this was done, the merged factor could only be
considered as one aggravator in the weighing process. The jury is then instructed
that they must weigh whether the aggravating factors have been found to exist are
sufficient to justify the death penalty, whether the aggravating factors outweigh
any mitigating circumstances found to exist, and, based on all of the considerations
pursuant to these instructions, whether the defendant should be sentenced to life
imprisonment. As to the weighing process, the jury was to be instructed:
The process of weighing aggravating factors and mitigating
circumstances is not a mechanical or mathematical process.
In other words, you should not merely total the number of
aggravating factors and compare that number to the total
number of mitigating circumstances. The law contemplates
that different factors or circumstances may be given different
weight or values by different jurors. Therefore, in your decisionmaking process, each individual juror must decide what weight
is to be given to a particular factor or circumstance. Regardless of
the results of each juror’s individual weighing process- even if
you find that the sufficient aggravators outweigh the mitigators
-the law neither compels nor requires you to determine that

the defendant should be sentenced to death.
These jury instructions were authorized for immediate use. Two weeks later
Petitioner’s penalty phase began.
2. The use of the prior violent felony aggravator in Petitioner’s case
For inexplicable reasons, the prior violent felony aggravator was applied in
Petitioner’s case in a manner that appears never to have been done before in
Florida. Instead of using the prior violent felony aggravator as is has been done for
forty-seven years, in this case the State obtained a jury vote on six separate and
distinct prior violent felony aggravators- one for each prior or contemporaneous
prior violent felony conviction Petitioner had between this case and the Riley case.
Under the accepted method of calculating aggravating factors in the State of
Florida, Petitioner’s case was a two aggravator case.

This case was a two

aggravator case based on the applicability of the prior violent felony and/or prior
capital felony convictions and the merger of two additional aggravating factors- the
murder was committed for pecuniary gain and that the murder was committed
while the defendant was engaged in the commission of a robbery-into a single
aggravator consistent with Florida law. Instead, Petitioner’s jury deliberated,
considered, and weighed this case as an eight aggravator case.
The error began with opening statements, where the prosecutor told the jury
they would be required to consider eight separate aggravating factors and continued
as a theme of the State’s closing argument, delineating each aggravating factor as
follows

1. one prior capital felony for the death of Carmen Riley;
one prior violent felony for the armed robbery of Riley;
2. one prior violent felony for the Robbery of Mark Wilkerson and
Clifford Drake
3. one prior violent felony for the aggravated assault with a firearm of
Mark Wilkerson;
4. one prior violent felony for the burglary of the Drake residence;
5. murder happened during the commission of a robbery;
6. murder happened during the commission of a burglary;
7. the murder was committed for pecuniary gain.
The State repeatedly highlighted the number of aggravating factors,
emphasizing that this case was extremely aggravated.
Defense counsel conceded in his closing argument the State had proven seven
or eight aggravating factors.
The Florida Supreme Court stated “… the trial court’s jury instructions
allowed the jury to treat each of Smiley’s five prior violent felony convictions as a
separate aggravator. Specifically, the verdict form identified and listed each prior
violent felony individually and asked the jury to record its vote on each.” Smiley v.

State, 256 So.3d at 174. No objections were made to the jury instructions or verdict
forms.
The trial court did not give the standard jury instructions recently adopted by
the Florida Supreme Court or the jury instructions provided by the parties that the
trial court appeared to approve.

Instead, the trial court rejected the proposed

instructions agreed to by the parties and used instructions and verdict forms he
created. The jury was instructed that the “weighing process is not ‘mechanical or
mathematical’ and that the jury therefore ‘should not merely total the number of

aggravating factors and compare that number to the total number of mitigating
circumstances.’” Smiley v. State, 295 So.3d at 175.
The Florida Supreme Court reviewed the claim of error under the
fundamental error doctrine.

The Florida Supreme Court found there was no

fundamental error, stating: “There is nothing in the death penalty sentencing
statute or in our case law that prohibits asking the jury to separately indicate its
findings on a prior violent felony underlying the prior violent felony aggravator.
Indeed, we have observed in evaluating the weight of the prior violent felony
aggravator, “the facts upon which the aggravator is based are critical to our
analysis.” Bevel v. State, 983 So.2d 505, 514 (Fla. 2008). Voting separately on each
underlying conviction also adds clarity to the jury’s findings and could be helpful if
any particular conviction is subsequently invalidated.” Ibid., at 175.
The same error of over-counting the aggravators extended to Petitioner’s
sentencing hearing by the trial court. Again, instead of considering this as a two
aggravator case under Florida law, the trial court improperly grouped the two
aggravators related to the Riley case on one aggravator; one combined aggravator
for the prior convictions of assault and robbery of Mark Wilkerson and for the
Drake murder committed during the robbery of Wilkerson; one combined
aggravator for the contemporaneous conviction for burglary with an assault or
battery during the commission of a burglary and the fact the Drake murder was
committed during a burglary; and one aggravator for pecuniary gain, for a total of
four aggravators.

The Florida Supreme Court held the trial court’s error in

considering double the number of permissible aggravators to be harmless error
because the trial court found this to be a highly aggravated murder and each of the
aggravators was proven by the facts. Ibid., at175- 176.
3. The decision of the Florida Supreme Court is error because it violates the
Eighth Amendment’s ban on cruel and usual punishment and the Fourteenth
Amendments’ guarantee of equal protection.
The Florida Supreme Court’s glossing over the clear error in this case
violates the Eighth Amendment’s ban on cruel and usual punishment. The result
of the decision is that Petitioner is the only person on Florida’s death row to have
the prior violent felony aggravator applied in the manner in which it was done in
his case- to allow the jury and trial court to consider each prior violent felony
conviction as a separate, stand-alone aggravating circumstance. As a consequence of
this gross deviation from established law and practice, the sentencing result is
unreliable.

The grossly inflated number of aggravators in this case failed to

properly ensure that the Eighth Amendment’s requirement that death eligibility be
reserved for only the most aggravated and least mitigated of cases and that a death
sentence be imposed in a fair, consistent, and reliable manner. Instead, the
sentencing process in this case resulted in a sentencing process that is not fair,
consistent, or reliable, but was instead arbitrary and capricious and failed to
properly narrow death eligibility.
In Tuilaepa v. California, 512 U.S. 967, 971, 114 S.Ct. 2630, 129 L.Ed.2d 750
(1994), identified two aspects of the capital decision making process- eligibility and
selection. Because the death penalty is reserved for only a subset of those who

commit murder, the trier of fact must find at least one aggravating circumstance in
order for a defendant to be eligible for the death penalty. This finding serves to
narrow the class of persons eligible for the death penalty and must reasonably
justify the imposition of a more severe sentence on the defendant compared to
others found guilty of murder. Zant v. Stephens, 462 U.S. 862, 877, 103 S.Ct. 2733,
77 L.Ed.2d 235 (1983).

The selection decision involves determining “whether a

defendant eligible for the death penalty should in fact receive that sentence.

Tuilaepa, 512 U.S. at 972, 114 S.Ct. 2630.

The selection decision must be an

individualized determination that assesses the defendant’s culpability, taking into
account the “relevant mitigating evidence of the character and record of the
defendant and the circumstances of the crime.” Id. The Florida Supreme Court’s
decision denied Petitioner a constitutional selection process by substantially
increasing the number of aggravating factors to six instead of one.

The

consideration of six factors and the assignment of weight to six factors instead of
one unduly emphasized the level of aggravation in this case.
The Fourteenth Amendment equal protection clause protects classes and
individuals from being treated arbitrarily without a legitimate justification.

Clements v. Fashing, 457 U.S. 957, 963, 102 S.Ct. 2836, 73 L.Ed.2d 508 (1982).
Petitioner is the only inmate on Florida’s death row to have had a penalty phase
jury consider a separate and distinct aggravating factor of each prior violent felony
conviction. Petitioner is the only inmate on Florida’s death row to have what should
have been a two aggravator case converted to an eight aggravator case by

exponentially increasing the number of aggravating factors in a manner never
previously done.

As a result of the grossly over-stated number of aggravating

factors, it cannot be said that the death penalty in this case is fair, consistent or
reliable and that Petitioner falls within the narrow subset of murders for which
death is reserved.
B. The Florida Supreme Court’s Approval of a Process Where the Jury Was
Required to Consider and Make Findings of a List of Non- Statutory Mitigating
Circumstances and the Trial Court’s Failure to Consider and Weigh Each NonStatutory Mitigating Circumstance Resulted in a Process That Undercounted
and Weighed the Mitigation In This Case Resulting in a Death Sentence That is
Unreliable
1. The treatment of mitigating circumstances on the jury verdict form and by
the trial court at sentencing in this case.
The penalty phase verdict form in this case required the penalty phase jury
to vote on each statutory and non-statutory mitigating circumstance and then to
record their numerical vote on each. The verdict form listed four possible statutory
mitigating circumstances and three broad categories of non-statutory mitigating
circumstances. The non-statutory mitigation was listed as the defendant’s
character, background, or mitigation related to the life of the defendant. Trial
counsel objected to this form, which had been created by the trial court.

The

penalty phase jury’s recorded verdict suggested the jury rejected most of the
mitigation presented.
The Florida Supreme Court found there was no error to the penalty phase
jury instructions and penalty phase verdict form as they related to mitigating
circumstances. The Florida Supreme Court found no error to the jury instructions,

despite the fact that the jury instruction ultimately approved by the Florida
Supreme Court in In re Standard Criminal Jury Instruction in Capital Cases, 244
So.3d 172 (Fla. 2018), differed from the instructions given in this case. Smiley v.

State, 295 So.3d at 175.
The trial court failed to properly consider the non-statutory mitigating
circumstances in the sentencing order.

The trial court took the non-statutory

mitigating circumstances and stated it had “examined the evidence pertaining to
the Defendant’s life prior to the age or seventeen (when he left home), after he left
his home, the reported brain aneurysms, and the Defendant’s conduct after the
brain injury.” Ibid, at 176. When the trial court addressed and evaluated all the
non-statutory mitigation in a single paragraph and concluded those circumstances
warranted “moderate weight.” Ibid.
Florida law has required the trial court to consider each non-statutory
mitigating circumstance individually. The trial court must expressly evaluate each
non-statutory mitigating circumstance to determine whether it is supported by the
evidence and whether it is truly of a mitigating nature. Bundling of mitigating
circumstances is permitted only if the non-statutory mitigating circumstances are
grouped by related conduct. Ibid, at 176-177. The Florida Supreme Court found the
trial court’s sentencing order failed to address Petitioner’s nonstatutory mitigating
circumstances “with the specificity that Campbell and its progeny require.” Ibid.,
177.

The Florida Supreme Court determined the trial court’s bundling was

improper because the mitigation in Petitioner’s case were “too substantively
dissimilar from each other to be addressed as a whole.” Ibid.
The Florida Supreme Court found the error to be harmless. The Court
determined there was “no reasonable possibility that Smiley would have received a
lesser sentence absent the trial court’s error”. Ibid., at 178.
2. The decision of the Florida Supreme Court is error because it violates the
Eighth Amendment’s ban on cruel and usual punishment and the
Fourteenth Amendment guarantee of equal protection.
Under Florida law, penalty phase juries are not limited in their consideration
of mitigation. All relevant circumstances may be considered in mitigation. The
statutory factors merely indicate principal factors to be considered. Songer v. State,
365 So.2d 696 (Fla. 1978). Review must be expansive enough to accommodate all
relevant mitigating circumstances. Tuilaepa v. California, 512 U.S. at 973. The
finding of eligibility [an applicable aggravating factor] and selection [the
assessment of mitigation not subject to a mathematical calculation] in the same
process often creates tension. Ibid. The duty of the State is to create a process that
is neutral and principled to guard against bias or caprice in the sentencing
determination by the jury. Ibid.

The use of a penalty phase verdict form that

required to jury to choose from a finite list of statutory and non-statutory mitigating
circumstances failed to meet that standard.
In Petitioner’s case the requirement that the penalty phase jury vote on a
restrictive list of mitigation, both statutory and non-statutory, on the verdict form
and record their vote as to each of those items unconstitutionally limited the jury’s

ability and duty to consider all relevant mitigating circumstances. Requiring the
jury to vote on a catch-all of non-statutory mitigating circumstances necessarily
excludes any non-statutory mitigating circumstance not itemized on the penalty
phase verdict form from consideration by the jury.

As a result, the selection

function of the capital sentencing process is fatally flawed because it fails to meet
the Eighth Amendment’s requirement that death is restricted to only the most
aggravated and least mitigated of cases and that the death penalty is administered
in a fair, consistent and reliable manner.
In Petitioner’s case the penalty phase jury’s consideration of mitigation was
implicitly limited by the verdict form and the trial judge failed to properly consider
each circumstance by what was acknowledged by the Florida Supreme Court as an
improper bundling of disparate mitigating circumstances. As a result, the Eighth
Amendment’s restriction on when a death sentence can be imposed was fatally
compromised. The Florida Supreme Court’s determination that the manner in
which the mitigation in this case was considered and weighed is incorrect.
The compounding of these two errors, especially when coupled with the error
in the excessive number of aggravators resulted in Petitioner being arbitrarily
treated in a manner different from every other Florida death row inmate- a
distinction without justification in violation of equal protection under the
Fourteenth Amendment.
II. THE DECISION OF THE FLORIDA SUPREME COURT IN
SMILEY v. STATE, 295 So. 3d 156 (FLA. 2020), VIOLATES THE SIXTH
AMENDMENT’S GUARANTEE OF A FAIR TRIAL BY AN IMPARTIAL

JURY AND THE FOURTEENTH AMENDMENT’S GUARANTEE OF
EQUAL PROTECTION BY UNCONSTITIONALLY PERMITTING THE
SENTENCING JURY TO BE INFLUENCED BY KNOWLEDGE THAT
THE OFFICE OF THE STATE ATTORNEY HAD SIXTY PENDING
CASES, BUT WERE SEEKING THE DEATH PENALTY IN ROUGHLY
10% OF THOSE, OF WHICH THIS CASE WAS ONE.
A. Factual Basis
During the prosecution’s penalty phase voir dire the venire was asked if
anyone felt strongly that anyone convicted of first-degree murder should receive the
death penalty. The prosecutor then directed her questions to one potential juror
who had already indicated strong support for the death penalty, asking that juror if
a conviction for first-degree murder should carry an automatic death sentence. The
juror started to answer, but was then interrupted by the prosecutor, who stated “Do
you understand that in Florida not every case meets the qualifications for a death
penalty?” The prosecutor continued:
We have, you know, 60 death- 60 first-degree murder cases pending in our
circuit. Okay? Probably nine of them are death eligible. So just because
you’re charged with first-degree murder does not mean that your case
qualifies as a case that we would seek the death penalty in. Do you
understand that?
The juror responded affirmatively when asked if he agreed with that.

The

prosecutor then noted the juror had indicated strong support of the death penalty
and asked if the juror could follow the law and hold the State to its burden and
consider and weigh both the aggravating factors and mitigating circumstances. No
objection was made by defense counsel. Smiley v. State, 295 So.3d 156, 169-170
(Fla. 2020).

The prosecutor then continued voir dire, asking the next juror who was also a
strong death penalty proponent, if that juror would automatically impose a death
sentence. The juror said “No”, and the prosecutor continued “And do you understand
that in the State of Florida that there are certain criteria that must be met before
the State can even seek the death penalty?” After the juror answered they
understood that, the prosecutor continued “All right. So like I said, we have lots of
cases but we don’t- there are only cases that meet that –“. At this point defense
counsel objected. Ibid., 170.
Defense counsel began by acknowledging he had not contemporaneously
objected to the first question, but anticipated where this questioning was going.
Defense counsel objected, stating the comments were very prejudicial and
ultimately asked to strike the panel. The objection was upheld, but the request to
strike was denied. Ibid., 170.
Ultimately, seven of the twelve jurors who served on the penalty phase jury
heard these inflammatory statements from the prosecutor.
B. Decision of the Florida Supreme Court
The Florida Supreme Court stated “We do not condone the prosecutor’s
comments. The State can and should explain the concepts of death eligibility,
aggravation, and mitigation without telling the jury that the government seeks the
death penalty in only a subset of first-degree murder cases. But the prosecutor’s
statements here fell far short of what would be required to justify striking the
venire and starting over again, and the trial court did not abuse its discretion in

denying Smiley’s request.” Ibid., 171. The Florida Supreme Court did not address
any deficiencies in the objections made by trial counsel.
C. The decision of the Florida Supreme Court is erroneous where the actions
of the prosecutor in this case violated the Sixth Amendment right to a fair
trial and impartial jury and the Fourteenth Amendment’s guarantee of
equal protection.
The Florida Supreme Court properly recognized the prosecutor’s comment
erroneous and should never be used in voir dire. The Florida Supreme Court failed
to correctly analyze the prejudicial implications of these comments on Petitioner’s
Sixth Amendment right to a fair trial and impartial jury.
Petitioner has a right to a fair and impartial jury. Comments such as these
have been found to be objectionable in penalty phase proceedings because such
comments constitute improper vouching by the prosecutor for a vote of death and
encourage the jury to rely on the composite judgment of the prosecution instead of
their own independent judgment when considering whether death is the
appropriate punishment. Prior decisions of the Florida Supreme Court have
resulted in new trials in capital proceedings for similar statements made in closing
arguments. See, Pait v. State, 112 So.2d 380 (Fla. 1959); Brooks v. State, 762 So.2d
879 (Fla. 2000); Ferrell v. State, 29 So.3d 959, 988 (Fla. 2010).
In Braddy v. State, 111 So.3d 810 (Fla. 2012), the prosecutor made
statements in several statements in closing argument which were objected to as
error because the comments were improper vouching. The first line of comments
advised the jury that not every case was a death case, and that determination as
made by looking at each individual case and then taking that case to a jury of peers

to have that jury weight the evidence. The Florida Supreme Court found no error in
these comments, as they appropriately advised the jury of the jury’s role and the
weighing process. The Florida Supreme Court distinguished between comments by
the prosecutor about the jury’s responsibility to weigh relevant factors, rather than
a direct, unambiguous appeal for jurors to give weight to the fact that the State has
decided to seek the death penalty. However, a second set of comments the Florida
Supreme Court found “raised concern”. In these comments the prosecutor stated
“that the determination … that the State has to make in bringing a case like this to
you as a death penalty case” were more similar to the type of impermissible
comments previously rejected in Pait, Brooks, and Ferrell. However, the Florida
Supreme Court found that context mitigated the damage and ultimately determined
that issue was not properly preserved because defense counsel failed to obtain a
ruling on his objection to the problematic comments.
Using Braddy, the Florida Supreme Court erroneously determined the
prosecutor’s comments in this case were not error due to context. The decision of
the Florida Supreme Court ignores the full content of the prosecutor’s comments in
this case and ignores the Sixth Amendment implication these comments had on the
penalty phase jury that was to be the sentencer in this case.
In this case the prosecutor clearly communicated to the jury that a weighing
process had already occurred in this case and that it had been determined that this
case was one in which death was appropriate. The prosecutor informed the venire
that of 60 pending first-degree murder cases in the office, the prosecutor’s office had

determined that only eight or nine (little more than 10%) met the criteria to move
through the judicial process as death penalty cases.

The impropriety of these

comments was acknowledged by the Florida Supreme Court. However, the Florida
Supreme Court unconstitutionally underestimated the impact of these comments on
the jury and failed to consider the heightened prejudice these comments would have
when the penalty phase jury is the sentencer.
In Brooks v. Kemp, 762 F.2d 1383 (11th Cir. 1985), the court found that
because the jury is empowered to exercise its discretion in determining punishment,
the prosecutor cannot undermine that discretion by implying that she, or another
higher authority, has already made the careful decision necessary in the penalty
phase. Such comments impinged on a defendant’s Sixth Amendment right to a fair
trial and impartial jury. The comments in this case are no less significant than
those in Brooks. In Brooks the prosecutor told the jury his office had sought the
death penalty only six or eight times, less than a dozen times. Ibid. 1395. The court
found this comments on prosecutorial expertise particularly troubling. Ibid., 1410.
There is nothing less troubling about the statistical data presented to the jury in
Petitioner’s case by the prosecutor than argument citing the same type of statistical
data in Brooks. Petitioner’s jury was told that the prosecutor had already
determined that fifty-one other pending first-degree murder cases did not warrant a
death penalty prosecutor, but his did.
The importance of the jury’s determination in death cases has changed
dramatically in Florida. At the time of Brooks v. Kemp, Braddy, Pait, Ferrell, and

Brooks v. State, the jury gave only a sentence recommendation to judge, who
ultimately determined the sentence. However, since judge-determinant sentencing
was struck down by this Court in Hurst v. Florida, 136 S.Ct. 616 (2016), the jury in
Florida is now the sentencer. Any error that resulted in prejudice sufficient to
warrant reversal when the penalty phase jury’s duty was to provide only a
sentencing recommendation is clearly greater error with equal or greater prejudice
now that the penalty phase jury is the sentencer. The danger that the penalty phase
jury will be improperly influenced by the imprimatur of the State’s greater wisdom
or higher authority in determining that death is appropriate is heightened with
penalty phase jury sentencing. The Florida Supreme Court’s failure to recognize the
unconstitutional impact on Petitioner’s Sixth Amendment right to a fair trial and
impartial jury warrants review.
CONCLUSION
This Court should grant a writ of certiorari to review the decision below.
DATED this 6th day of October 2020.
Respectfully submitted,

/s/Robert A. Norgard

ROBERT A. NORGARD
Member of the Bar of the

United States Supreme Court
Norgard, Norgard & Chastang
P.O. Box 811
Bartow, FL 33831
(863)533-8556
Fax (863)533-1334
Norgardlaw@verizon.net
Fla. Bar No. 322059

/s/Andrea M. Norgard
ANDREA M. NORGARD

Appointed Counsel of Record in
State Court-Florida
Norgard, Norgard & Chastang
P.O. Box 811
Bartow, FL 33831
(863)533-8556
Fax (863)533-1334
Norgardlaw@verizon.net
Fla. Bar No. 0661066

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

295 So.3d 156
Supreme Court of Florida.

Benjamin Davis SMILEY, Jr., Appellant,
v.
STATE of Florida, Appellee.
No. SC18-385
|
May 14, 2020
Synopsis
Background: Defendant was convicted in the Circuit Court,
10th Judicial Circuit, Polk County, Jalal Harb, J., first-degree
felony murder, robbery with a firearm, aggravated assault
with a firearm, and burglary of a dwelling with an assault
or battery while armed with a firearm and was sentenced to
death. Defendant appealed.

aneurysm, and people suffered brain aneurysms all the time
and managed to go on with life without murdering people, was
not improper denigration of defendant's mitigation evidence;
[6] trial court error in instructing the jury during the penalty
phase of felony murder trial that each of defendant's prior
violent felony convictions constituted a separate aggravating
factor did not amount to fundamental error; and
[7] any error by the trial court when merging aggravating
factors was harmless.
Affirmed.
Labarga, J., concurred in the result.

West Headnotes (36)
[1]

Holdings: The Supreme Court held that:

[2] the probative value of two photographs depicting
defendant and accomplice together was not outweighed by the
danger of unfair prejudice;
[3] defendant failed to establish he was entitled to a mistrial
after the State's penalty phase voir dire comments referred to
the frequency with which the state attorney's office seeks the
death penalty;

[5] prosecutor's comments in closing argument in penalty
phase of felony murder trial, that defendant suffered a brain

Failure to produce

The trial court's determination that the State
did not commit a discovery violation when it
failed to disclose one photograph of defendant
and accomplice to the defense until after trial
had started was not an abuse of discretion,
during prosecution for felony murder; the record
showed that the State had no intention of using
the disputed photo at trial until defendant's aunt
provided it to the State's investigator after aunt
finished testifying at trial, and in its presentation
to the trial court, defense counsel acknowledged
that the timing of the State's disclosure of
the disputed photo reflected neither intentional
misconduct nor bad faith. Fla. R. Crim. P.
3.220(b)(1)(K), 3.220(j).

[1] the trial court's determination that the State did not
commit a discovery violation when it failed to disclose one
photograph of defendant and accomplice to the defense until
after trial had started was not an abuse of discretion;

[4] the jury's failure to mark spaces on the verdict form
that would have allowed it to make special findings about
defendant's possession or discharge of a firearm during
the commission of the crimes of robbery with a firearm,
aggravated assault with a firearm, and burglary of a dwelling
with an assault or battery while armed with a firearm did not
preclude the State from arguing to the penalty phase jury that
defendant was the shooter in the murder;

Criminal Law
information

[2]

Criminal Law

Preliminary proceedings

The Supreme Court applies the abuse of
discretion standard to review a trial court's ruling
on an alleged discovery violation.

[3]

Criminal Law

Preliminary proceedings

Appendix "A"
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

Defendant failed to preserve for appellate review
his claim that the State violated the discovery
rule requiring disclosure of any tangible papers
or objects that were obtained from or belonged
to the defendant when it failed to disclose one
photograph of defendant and accomplice to the
defense until after trial had started, even though
the State had seen a copy of the photograph on
defendant's social media account prior to trial,
during prosecution for felony murder, where
defendant made no argument that a photo posted
on a publicly accessible social media page should
be deemed an object that was “obtained from or
belonged to the defendant” for purposes of the
rule. Fla. R. Crim. P. 3.220(b)(1)(F).

[4]

Criminal Law

that the photograph in question is what the
proponent claims.

[8]

The Supreme Court reviews conclusions by
the trial court regarding authentication of
photographic evidence for abuse of discretion.

[9]

Criminal Law

Photographs and videos

Photographs and videos

The proponent of photographic evidence bears
the burden of establishing that the evidence is
a fair and accurate representation of the events
depicted.

[6]

Criminal Law

Criminal Law

[10]

Photographs and videos

Authentication of a photograph for the purpose
of admission is a relatively low threshold that
requires evidence sufficient to support a finding

Criminal Law
Evidence calculated
to create prejudice against or sympathy for
accused
The weighing of probativeness versus unfair
prejudice is best addressed by the trial court. Fla.
Stat. Ann. § 90.403.

Photographs and videos

Any witness with knowledge that the
photographic evidence is a fair and accurate
representation may testify to the foundational
facts; the photographer need not testify.

[7]

Criminal Law
Evidence calculated
to create prejudice against or sympathy for
accused
The probative value of two photographs
depicting defendant and accomplice together
was not outweighed by the danger of unfair
prejudice, during prosecution for felony murder,
even though photographs depicted defendant
holding a liquor bottle and making a gun gesture
and accomplice smoking what appeared to be
a blunt; the photographs supported the State's
theory that defendant and accomplice were close
friends and that accomplice was involved in the
victim's murder, and the identity and appearance
of defendant's accomplice during the murder was
a material issue in the case. Fla. Stat. Ann. §
90.403.

The State adequately authenticated photograph
of defendant and accomplice, and thus the
photograph was admissible during prosecution
for felony murder, where police detective, based
on his ability to personally to identify both
the defendant and accomplice, testified that the
photograph depicted those two men, and he
further testified that he had seen the photograph
on defendant's social media page.

[5]

Criminal Law
Evidence dependent on
preliminary proofs

[11]

Criminal Law
Ambiguity; evidence
subject to interpretation
Criminal Law
defense

Acts done or omitted by

The trial court's denial of defendant's motion
for a mistrial after defendant's cousin testified
that defendant had gloves with him at the time
of the murder and stated “[w]hen we normally
operate like that, we normally use gloves,”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

which allegedly referred to defendant's prior
crimes, was not an abuse of discretion, during
prosecution for felony murder; defendant's
cousin's vague reference to other crimes did not
rise to the level of justifying a mistrial, and
defense counsel invited the response through his
questioning of defendant's cousin.

[12]

Criminal Law
Otherwise irreparable error
or prejudice in general
Criminal Law
general

[15]

Criminal Law

[16]

Sentencing and Punishment
and conduct of counsel

Arguments

The jury's failure to mark spaces on the verdict
form that would have allowed it to make
special findings about defendant's possession or
discharge of a firearm during the commission of
the crimes of robbery with a firearm, aggravated
assault with a firearm, and burglary of a dwelling
with an assault or battery while armed with a
firearm did not preclude the State from arguing
to the penalty phase jury that defendant was the
shooter in the murder; the jury found defendant
guilty of first degree felony murder as charged
in the indictment, and the indictment explicitly
alleged that defendant killed the victim by
shooting him with a firearm.

Fairness and justice in

Evidentiary Matters

Defendant failed to establish that he was entitled
to a mistrial after defendant's cousin, during
questioning as to why he considered changing
his story to police about his involvement in the
murder, testified that defendant faced the death
penalty, during prosecution for felony murder;
cousin's comment was fleeting and isolated.

Issues related to jury trial

The Supreme Court reviews a decision of the trial
court to deny a motion to strike the jury panel for
abuse of discretion.

A motion for mistrial should be granted only
when it is necessary to ensure that the defendant
receives a fair trial; in other words, a motion for
a mistrial should only be granted when an error
is so prejudicial as to vitiate the entire trial.

[13]

Criminal Law

[17]

Criminal Law
general

Arguments and conduct in

Criminal Law
Statements as to Facts,
Comments, and Arguments
[14]

Sentencing and Punishment
Related to Jury

Matters

Defendant failed to establish he was entitled to a
mistrial after the State's penalty phase voir dire
comments referred to the frequency with which
the state attorney's office seeks the death penalty,
during which the prosecutor stated there were 60
first-degree murder cases pending in the circuit
and likely none of them were death eligible; the
prosecutor was conveying the point that the law
did not permit jurors to vote for the death penalty
as an “automatic” punishment for first-degree
murder, the prosecutor in fact asked the jurors
for assurance they could hold the State to its
burden of proving an aggravating factor beyond a
reasonable doubt, and the prosecutor did not ask
the potential jurors to give weight to the State's
decision to seek the death penalty.

Objected-to closing argument comments are
reviewed for harmless error, and unobjected-to
comments for fundamental error.

[18]

Sentencing and Punishment
Presentation
and reservation in lower court of grounds of
review
“Fundamental error” in penalty phase closing
arguments is error that reaches down into the
validity of the trial itself to the extent that
the jury's recommendation of death could not
have been obtained without the assistance of the
alleged error.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

[19]

Sentencing and Punishment
review

people suffered brain aneurysms all the time
and managed to go on with life without
murdering people, was not improper denigration
of defendant's mitigation evidence regarding
his brain aneurysm; the comments were proper
arguments going to the weight that the jury
should assign to the asserted mitigation evidence.

Scope of

The Supreme Court does not review challenged
closing argument comments only in isolation;
rather, it considers the closing argument as a
whole and determines whether the cumulative
effect of any errors deprived the defendant of a
fair penalty phase hearing.
[24]
[20]

Criminal Law
Summing up

Sentencing and Punishment

Instructions

The State did not make an impermissible golden
rule argument during the penalty phase by saying
defendant “has an utter disregard not only [for]
the security of your home, of [murder victim's]
home, of [prior murder victim's] home, but
also he has an utter disregard for the sanctity
of human life,” during sentencing for felony
murder; prohibited golden rule arguments asked
the jurors to put themselves in the victim's
position and to imagine the victim's pain and
terror.

[22]

Sentencing and Punishment
and conduct of counsel

Arguments

The State's penalty phase jury argument
providing that the their decision to impose the
death penalty could not be based on sympathy
for the defendant was a correct statements of law,
during sentencing for felony murder; caselaw
established that it was permissible to tell the jury
that it should not base its decision on sympathy
for defendant.

[23]

Sentencing and Punishment
and conduct of counsel

Arguments and comments

Defense counsel's closing argument did
not constitute deficient performance, during
prosecution for felony murder, where the alleged
inadequacies of counsel's closing argument were
not indisputable based on the face of the record.
U.S. Const. Amend. 6.

Scope of and Effect of

Attorneys are generally afforded wide latitude
while presenting closing statements to the jury.

[21]

Criminal Law

Arguments

Prosecutor's comments in closing argument
in penalty phase of felony murder trial, that
defendant suffered a brain aneurysm, and

[25]

Criminal Law

Conduct of Trial in General

Ineffective assistance of counsel claims usually
are not cognizable on direct appeal; the Supreme
Court is willing to depart from this general rule
in the rare situation where ineffectiveness, both
performance and prejudice, is indisputable from
the face of the record before it. U.S. Const.
Amend. 6.

[26]

Sentencing and Punishment

Instructions

Sentencing and Punishment
Presentation
and reservation in lower court of grounds of
review
Trial court error in instructing the jury during the
penalty phase of felony murder trial that each
of defendant's prior violent felony convictions
constituted a separate aggravating factor did
not amount to fundamental error, and thus
was harmless; the aggravating factors included
defendant's prior conviction for murder and the
fact that the current felony murder conviction
involved crimes against a separate victim,
the verdict form showed the jury found very
little mitigation and suggested the jury rejected
defendant's mitigation argument that his ruptured
aneurysms and resulting brain damage lessened
his culpability, and the trial court instructed
the jury that the weighing process was not
mathematical.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

[27]

Sentencing and Punishment
Presentation
and reservation in lower court of grounds of
review

[31]

Sentencing and Punishment
Nature,
degree, or seriousness of other offense
In evaluating the weight of the prior violent
felony sentencing aggravator, during the penalty
phase of trial, the facts upon which the
aggravator is based are critical to the Court's
analysis.

[29]

[32]

Sentencing and Punishment
Nature,
degree, or seriousness of other offense

Sentencing and Punishment
offender's personal participation

Extent of

The trial court was not required to conduct an
analysis under Enmund v. Florida, 458 U.S.
782, 102 S.Ct. 3368, and Tison v. Arizona, 481
U.S. 137, 107 S.Ct. 1676, where the Court
stated that the death penalty was disproportional
punishment for the crime of felony murder where
the defendant was merely a minor participant
in the crime and the state's evidence of mental
state did not prove beyond a reasonable doubt
that the defendant actually killed, intended to
kill, or attempted to kill, during sentencing
following conviction for felony murder, where
the jury found defendant killed the victim, and
that finding was supported by evidence in the
record.

Sentencing and Punishment
and reversible error

Harmless

The trial court's error in failing to adequately
consider each proposed nonstatutory mitigating
circumstance during sentencing was harmless,
during prosecution for felony murder, where
there was no reasonable possibility that
defendant would have received a lesser sentence
than death as he had previously been convicted
of murder, the sentencing order indicated
the court was aware of and considered the
nonstatutory mitigating circumstances, and the
court found defendant had established the
statutory mitigators for extreme mental or
emotional disturbance and for substantially
impaired ability to conform to the law, but the
court still assigned each of these mitigators only
little weight. Fla. Stat. Ann. § 921.141(4).

If a capital defendant has multiple convictions
for prior violent felonies, the trial court can find
only a single aggravating circumstance, but it
may give that circumstance greater weight based
upon the existence of multiple convictions.

[30]

Harmless

Any error by the trial court when merging
aggravating factors was harmless, during
sentencing for felony murder; the trial court
found the case involved a highly aggravated
murder and that defendant had previously
committed murder, regardless of the grouping
of aggravating factors, the jury was required to
consider all of the aggravating factors, and the
court found very few mitigation factors.

To constitute fundamental error, an alleged
error in penalty phase jury instructions must
reach down into the validity of the sentencing
proceeding itself such that the sentence could not
have been obtained without the assistance of the
alleged error.

[28]

Sentencing and Punishment
and reversible error

[33]

Criminal Law
general

Sentencing proceedings in

The Supreme Court reviews alleged deficiencies
in a sentencing order for harmless error.

[34]

Homicide
Commission of or Participation
in Act by Accused; Identity
Evidence was sufficient to support conviction for
first-degree felony murder; eyewitness testified
that defendant shot and killed the victim and
that defendant stole eyewitness's cell phone and
forced his way into the victim's house, looking

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

for a safe, defendant's cousin testified that the
criminal episode had the goal of stealing money
from a safe in the victim's residence and that
defendant confessed to murdering the victim, and
DNA evidence linked defendant to a backpack
found at the crime scene and by cellphone
records showing eyewitness's stolen phone was
used in a three-way call with defendant's cousin
and defendant's aunt shortly after the murder.

Opinion
PER CURIAM.
Benjamin Davis Smiley, Jr. appeals a circuit court judgment
sentencing him to death.1 As we explain, we affirm the
conviction and sentence.

FACTS AND PROCEDURAL HISTORY
[35]

Sentencing and Punishment
Killing
while committing other offense or in course of
criminal conduct
Sentencing and Punishment
Nature,
degree, or seriousness of other offense
Sentence of death following defendant's
conviction for felony murder, robbery,
aggravated assault, and burglary was a
proportionate punishment; defendant's felony
murder conviction was highly aggravated,
particularly because of his prior conviction for
murder, and was only lightly mitigated.

[36]

Sentencing and
Punishment
Proportionality
When conducting proportionality review of a
death sentence the review is qualitative, not
quantitative, as the Supreme Court does not
simply tally the number of aggravating factors
and mitigating circumstances.

*161 An Appeal from the Circuit Court in and
for Polk County, Jalal A. Harb, Judge - Case No.
532015CF004903A000 XX
Attorneys and Law Firms
Andrea M. Norgard of Norgard, Norgard & Chastang,
Bartow, Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Marilyn Muir Beccue, Senior Assistant Attorney General,
Tampa, Florida, for Appellee

I. Guilt Phase
Mark Wilkerson lived in Lakeland with his brother Mario,
his mother, and his 58-year-old stepfather, Clifford Drake.
Late at night on April 15, 2013, as he was putting away
his bicycle, Wilkerson heard rattling coming from the chain
link fence at the rear of his home. Wilkerson saw two men,
both wearing dark sweatshirts, standing on the other side of
the fence. Wilkerson recognized neither man. He called out
to them, asking what they were doing. The shorter of the
two —we now know it was the defendant, Smiley—pointed
a gun at Wilkerson and commanded that he come toward
them. Smiley and the other man jumped the fence, and Smiley
ordered Wilkerson to take off his clothes and get on the
ground. Smiley pointed his gun at Wilkerson and yelled at
him, demanding to know where Wilkerson's stepfather kept a
safe with money. Wilkerson denied knowing about any safe
or money, and he begged for his life. Smiley went through the
pockets of Wilkerson's pants and took Wilkerson's cellphone,
a small amount of cash, and a key to the home.
Smiley told Wilkerson to put his pants back on. Keeping the
gun trained on Wilkerson, Smiley marched him to the front
door of the home, all the while threatening to kill Wilkerson
if he made any noise. Wilkerson, Smiley, and the other
man entered the home, and Wilkerson led them to Drake's
bedroom, where Drake lay asleep. At first, Smiley entered
the dark bedroom alone, but he was unable to find the safe.
Smiley ordered Wilkerson to go into the room and turn on
the light. Smiley then struck the still-sleeping Drake on the
head with the gun. Startled, Drake scooted around on the bed
while Smiley shouted at him, pointing the gun in Drake's
face and demanding to know where Drake kept his money.
Drake denied having any. Smiley then shot Drake in the hip
and continued to ask about the money. Seconds later, Smiley
fatally shot Drake in the chest.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

Smiley returned his focus to Wilkerson, ordering him at
gunpoint to help find Drake's money. Smiley watched
while Wilkerson ransacked the bedroom, to no *162 avail.
Eventually the taller man, who had been mostly silent
throughout this episode, warned Smiley that someone was
coming. Smiley commanded Wilkerson to get on the ground,
and he complied. Smiley and his accomplice then ran from
the home, leaving behind a backpack.
The police immediately began an investigation. Though
the murder weapon was never found, analysis of bullets
recovered at the scene showed that the gun from the Drake
murder had also been used less than a month earlier in a
nearby shooting. Otherwise the case went cold for nearly two
years. Then, in February 2015, the police learned that DNA
recovered from the backpack and from a sweatshirt found
near the crime scene matched Smiley's DNA. The police
showed Mark Wilkerson a photo lineup, and he identified
Smiley as the shooter.
The police also revisited phone records showing that, minutes
after the Drake murder, Mark Wilkerson's stolen cell phone
had been used in a three-way phone call. That in turn led the
police to two of the participants in that call, John McDonald
and Samantha Lee. McDonald, whose mother lived across
the street from the Drake home, is Smiley's cousin. Lee is
Smiley's aunt.
McDonald testified at trial that, during a card game, Mario
Wilkerson had bragged that his stepfather (Drake) kept
money in a safe. Within a few days, McDonald, Lee, and
Smiley hatched a plan to rob Drake. The night of the
murder, McDonald picked up Smiley and “Big Jit” from Lee's
house in Tampa and drove them to the parking lot of an
apartment complex behind the Drake residence in Lakeland.
McDonald had not met Big Jit before and was surprised by
his participation, but Lee vouched for him. The plan was for
Smiley and Big Jit to carry out the robbery and for McDonald
to pick them up afterward. McDonald waited for a while after
watching Smiley and Big Jit walk toward the Drake home,
but he drove off after seeing Mark Wilkerson ride by on
his bicycle. Eventually McDonald got a call from Lee, who
patched Smiley into a three-way call so that McDonald and
Smiley could find each other.
When Smiley got in the car he angrily told McDonald that it
had been a “blank mission”—the only proceeds of the robbery
were Wilkerson's cell phone and a small bag of marijuana.
Smiley had been unable to find the safe. And Smiley told

McDonald that “the dude that was asleep looked like he was
reaching for something and he [Smiley] shot him.”
Smiley testified in his own defense at trial. He acknowledged
his familial relationship with McDonald and Lee and his
friendship with “Big Jit” (whose actual name is Casey
Bisbee), but he denied having been part of any plan to rob
Drake. He further denied even being in Lakeland on the night
of the murder.
On October 6, 2016, the jury found Smiley guilty of the
first-degree felony murder of Clifford Drake, robbery with a
firearm of Mark Wilkerson, aggravated assault with a firearm
of Mark Wilkerson, and burglary of a dwelling with an assault
or battery while armed with a firearm, all as charged in
the indictment. John McDonald, Samantha Lee, and Casey
Bisbee were not charged with crimes for their roles in the
Drake murder.

II. Penalty Phase
The penalty phase began in April 2017 and was conducted
before a different jury. As to the State's case, the most
significant difference from the guilt phase is that the
prosecution was able to present evidence about Smiley's
prior conviction for the March 2013 first-degree murder
of Carmen Riley. John McDonald described circumstances
*163 similar to those surrounding the Drake murder. Riley
lived in the same neighborhood as Drake and McDonald's
mother. McDonald selected her as a target and planned the
robbery with Smiley and Samantha Lee. Smiley's role was
to carry out the robbery, McDonald was the driver. After the
robbery and murder, Smiley told McDonald that he shot Riley
because she refused to cooperate. Smiley shot Riley with the
same revolver he would use weeks later to kill Drake.
The defense case for mitigation focused largely on the effects
of two ruptured brain aneurysms that Smiley suffered in
September 2012, less than a year before he murdered Drake
and Riley. Dr. Alan Waldman, a neuropsychiatrist, testified
that bleeding from the ruptured aneurysms had caused severe
damage to the parts of Smiley's brain that affect behavior
and impulse control. In particular, according to Waldman, the
brain damage resulted in Smiley having problems with rage
control. Dr. Hartig, a psychologist hired by the defense but
whom the State called as a rebuttal witness, similarly testified
that Smiley's ruptured aneurysms constituted a severe brain
trauma. (Hartig also testified that Smiley generally performed

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

well on the personality tests she administered, and that Smiley
scored 114 on an IQ test.)
The defense complemented the experts’ testimony with
testimony from Smiley's mother, from Michael Clayton (a
former pro football player who had mentored Smiley for
years), and from Samantha Lee, all of whom testified that
Smiley's personality changed significantly after the ruptured
aneurysms. According to these witnesses, Smiley developed
a bad temper and mood swings, and he would rant on social
media over relatively insignificant matters—all of which was
out of character for him. Lee acknowledged that Smiley had
a temper and got in fights before the aneurysms, but she
testified that post-aneurysm Smiley was “just wild.” Smiley's
mother acknowledged that she had not personally observed
Smiley's personality changes, but she trusted what she had
heard about Smiley's behavior from her own mother and from
Lee.
The defense witnesses testified that, while Smiley's childhood
had not been without its difficulties, his post-aneurysm
behavior was very inconsistent with his past. Smiley did not
have a relationship with his biological father until age 18,
but he was close with his stepfather, who was married to
Smiley's mother from Smiley's infancy and treated him as his
own child. Smiley attended a private Christian school and did
well academically and in extracurricular activities. Smiley's
mother and stepfather were devoutly religious and strict, and
the stepfather disciplined Smiley with corporal punishment
—Smiley told Dr. Hartig that it did not rise to the level of
abuse, but Smiley thought it was overly harsh compared to
how his siblings were treated. Smiley learned construction
from his stepfather, which enabled Smiley to work home
renovation jobs for his mentor. At age 16, Smiley moved out
of his parents’ house because he no longer wanted to live
under their strict rules. From then on he lived intermittently
with Samantha Lee, with his girlfriend, with friends and other
relatives, or in houses that he was working on. Smiley drank
and smoked marijuana, but he did not have a history of
significant violence before the aneurysms.
The defense's penalty phase closing argument had two
principal themes. First, that Smiley's brain damage and its
effects on his temper and impulse control had led to behavior
that was inconsistent with his essential character. And second,
that the jury should take into account that John McDonald
and Samantha Lee had escaped responsibility for their role in
the Drake *164 and Riley murders, even though (according
to the defense) they had taken advantage of Smiley and led

him to commit those crimes. Defense counsel summed up his
argument saying: “There's simply this: Are these mitigating
factors that he has brain damage from something outside of
his control enough to offset his actions?”
The jury unanimously found the following aggravating
factors proven beyond a reasonable doubt: (1) Smiley was
previously convicted of another capital felony, the murder
of Carmen Riley; (2) Smiley was previously convicted of
a felony involving the use or threat of violence to the
person, robbery with a firearm regarding Carmen Riley;
(3) Smiley was previously convicted of a felony involving
the use or threat of violence to the person, robbery with a
firearm regarding Mark Wilkerson; (4) Smiley was previously
convicted of a felony involving the use or threat of violence
to the person, aggravated assault regarding Mark Wilkerson;
(5) Smiley was previously convicted of a felony involving
the use or threat of violence to the person, burglary with an
assault or battery while armed regarding Clifford Drake and
Mark Wilkerson; (6) Smiley committed the Drake murder
while engaged in the commission of robbery regarding Mark
Wilkerson; (7) Smiley committed the Drake murder while
engaged in the commission of burglary with an assault or
battery while armed with a firearm regarding Clifford Drake
and Mark Wilkerson; and (8) Smiley committed the murder
for pecuniary gain regarding Clifford Drake.
The jury's votes on Smiley's proposed mitigating
circumstances were as follows: no significant history of
prior criminal activity, 5 yes to 7 no; the capital felony
was committed while the defendant was under the influence
of extreme mental or emotional disturbance, 0 to 12; the
capacity of the defendant to appreciate the criminality of his
conduct or to conform his conduct to the requirements of
the law was substantially impaired, 0 to 12; the age of the
defendant at the time of the crime, 0 to 12; mitigation related
to the defendant's character, 7 to 5; mitigation related to the
defendant's background, 0 to 12; mitigation related to the
life of the defendant, 0 to 12; and mitigation related to the
circumstances of the offense, 1 to 11.
After performing the statutorily required assessment
and weighing of aggravating factors and mitigating
circumstances, the jury unanimously recommended that the
trial court sentence Smiley to death.

III. Spencer Hearing

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

The court held a Spencer2 hearing on November 13, 2017.
The State did not put on any evidence at the hearing. Smiley
called one witness, Dr. Hartig.
Dr. Hartig's testimony was similar to her testimony at
the penalty phase. Dr. Hartig explained information from
Smiley's background that assertedly related to mitigation. She
discussed (1) Smiley's lack of relationship with his biological
father; (2) Smiley's lack of relationship with his stepfather; (3)
Smiley being the subject of corporal punishment; (4) Smiley
running away from home and essentially being homeless;
(5) Smiley's persistence in pursuing his education despite his
circumstances; (6) Smiley's various paying jobs and good
work ethic; (7) Smiley's aneurysms; (8) Smiley's lack of
juvenile criminal history; and (9) Smiley's remorse for the
victims. Dr. Hartig also testified that Smiley seemed to lack
problem-solving abilities, which she linked to his traumatic
brain event.

*165 IV. Sentencing
The court held a sentencing hearing on February 23, 2018. As
to the count of first-degree murder, the lower court sentenced
Smiley to death. The trial court found that the State proved
eight aggravating factors beyond a reasonable doubt3 and
the defense established five mitigating circumstances by the
greater weight of the evidence.4 The court gave the jury's
recommendation “great weight” and concluded that “the
mitigation pales in comparison to the proven aggravating
factors.” The trial court sentenced Smiley to death, his
sentences for the other convictions to run concurrently with
this sentence. This direct appeal followed.

ANALYSIS
Smiley raises the following claims on appeal: (1) the trial
court erred in finding that the State did not commit a discovery
violation and in failing to make adequate findings under
Richardson v. State, 246 So. 2d 771 (Fla. 1971), regarding a
photograph of Smiley and Casey Bisbee; (2) the trial court
erred in admitting two photographs over an objection for lack
of proper predicate and prejudicial impact; (3) the trial court
abused its discretion in denying a defense motion for mistrial
after the testimony of John McDonald about Smiley's other
crimes; (4) the trial court abused its discretion in denying a
defense motion for mistrial after John McDonald's testimony

about Smiley's interest in the outcome of his case; (5) the
trial court erred in denying a motion for mistrial following
the State's comment in penalty phase voir dire regarding the
frequency with which the state attorney's office seeks the
death penalty; (6) the trial court erred in allowing the State
to argue during the penalty phase that Smiley possessed and
discharged a firearm; (7) the penalty phase closing arguments
violated Smiley's constitutional rights, entitling him to a
new trial; (8) the penalty phase jury instructions and verdict
form were improper and reversible error; and (9) the trial
court's sentencing order was legally deficient and incorrect
as a matter of law. We will also consider whether there
is sufficient evidence to sustain *166 the conviction and
whether Smiley's death sentence is proportionate.

I. Discovery Violation
[1] During the trial, the State introduced into evidence
two photographs depicting Smiley with Casey Bisbee. The
State disclosed one of the photos (photographic exhibit 162)
in pretrial discovery well in advance of trial. Detective
Wallace had viewed the photo on Smiley's publicly accessible
Facebook page, downloaded the photo, and given it to the
prosecutor. The second photo (photographic exhibit 161)
is one that Detective Wallace had also seen on Smiley's
Facebook page more than a year before trial, but he did not
download it. Several days into the trial, after her testimony
on the Friday of a holiday weekend, Samantha Lee gave the
State's investigator a copy of that same photo. Two days later,
on Sunday, the prosecution e-mailed the photo to the defense.
When the trial commenced again on Tuesday, the defense
objected to the introduction of the photo, arguing that the
State had committed a discovery violation by not disclosing
the photo earlier. The defense argued that its trial preparation
had been prejudiced because, compared to the photo that
the State had disclosed in discovery, the second photo more
starkly depicted the differences between Smiley and Bisbee
in height, weight, and skin complexion. The trial court heard
argument from both sides and concluded that there had been
no discovery violation.
[2] When, as here, a criminal defendant properly elects to
participate in the discovery process, that process is governed
by Florida Rule of Criminal Procedure 3.220. We apply the
abuse of discretion standard to review a trial court's ruling
on an alleged discovery violation. Andres v. State, 254 So. 3d
283, 293 (Fla. 2018).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

We find no abuse of discretion in the trial court's conclusion
that the State did not commit a discovery violation. Rule
3.220(b)(1)(K) requires the State to timely disclose to the
defense “any tangible papers or objects that the prosecuting
attorney intends to use in the hearing or trial and that were
not obtained from or that did not belong to the defendant.”
After the State's initial disclosure, rule 3.220(j) imposes a
continuing discovery obligation when “a party discovers
additional witnesses or material that the party would have
been under a duty to disclose or produce at the time of the
previous compliance.” Here, the record shows that the State
had no intention of using the disputed photo at trial until
Samantha Lee provided it to the State's investigator after
Lee finished testifying. In its presentation to the trial court,
defense counsel acknowledged that the timing of the State's
disclosure of the disputed photo reflected neither intentional
misconduct nor bad faith. Under these circumstances, we see
no violation of rule 3.220 subdivisions (b)(1)(K) or (j).
[3] In his reply brief, Smiley for the first time invokes
rule 3.220(b)(1)(F) in support of his argument that the State
committed a discovery violation. That rule requires disclosure
of “any tangible papers or objects that were obtained from or
belonged to the defendant.” Smiley did not make an argument
based on rule 3.220(b)(1)(F) either before the trial court or in
his initial brief in this appeal. Smiley did attempt to persuade
the trial court that Detective Wallace's initial viewing of the
photo on Smiley's Facebook page meant that the State had
possession or control of the photo from that moment on. But
Smiley made no argument that a photo posted on a publicly
accessible Facebook page (and viewed by an agent of the
State) should be deemed an object that was “obtained from or
belonged to the defendant” for purposes of the rule. Smiley
*167 has not preserved this argument for our review.
In any event, even if the State had committed a discovery
violation by untimely disclosing the disputed photo, we would
conclude beyond a reasonable doubt that Smiley suffered
no procedural prejudice from any such violation. See Smith
v. State, 7 So. 3d 473, 507 (Fla. 2009) (in the context
of discovery rule violations, harmless error inquiry asks
whether the violation materially hindered defendant's trial
preparation or strategy). To the extent that any physical
differences between Smiley and Bisbee were a material
issue at trial, that was entirely foreseeable by both the
prosecution and the defense. The defense knew through
the State's discovery disclosures that the State had in its
possession another photo of Smiley and Bisbee together and
that the State had viewed Smiley's Facebook page. Even if

there are differences between the two photos, Smiley surely
anticipated that the State would have many ways to elicit
testimony and to present evidence about Smiley's and Bisbee's
appearances, and Smiley knew to prepare accordingly. Under
these circumstances, we see no procedural prejudice to the
defense from the trial court's decision to allow the State's
introduction of photographic exhibit 161.

II. Admission of Photographic Evidence
A. Authentication
[4] Smiley contends that the trial court improperly admitted
photographic exhibit 161 (the disputed photo just discussed)
because the State failed to properly authenticate the photo.
The State introduced the photo through the testimony of
Detective Wallace. Wallace testified that, from his interview
of Samantha Lee, he had developed a lead as to the person
who was with Smiley during the Drake murder. Lee had
provided Wallace the person's first name and nickname
(Casey, “Big Jit”) and a physical description. After the
interview, Wallace looked at Smiley's publicly accessible
Facebook page and saw photos of Smiley with a person
matching the name and appearance Lee had described.
Wallace later learned Bisbee's full name and met both
Smiley and Bisbee in person. To establish the foundation
for admission of photographic exhibits 161 and 162, Wallace
testified that he was personally familiar with Smiley and
Bisbee, that he had seen the photos on Smiley's Facebook
page, and that the photos depicted Smiley and Bisbee
together. Smiley now claims that this was insufficient,
because Wallace did not himself download photographic
exhibit 161 from Smiley's Facebook page and did not know
when or by whom the photo was taken.
[5] [6] [7] [8] The proponent of photographic evidence
bears the burden of establishing that the evidence is a fair
and accurate representation of the events depicted. Mullens
v. State, 197 So. 3d 16, 25 (Fla. 2016). “Any witness with
knowledge that it is a fair and accurate representation may
testify to the foundational facts; the photographer need not
testify.” Charles W. Ehrhardt, Ehrhardt's Florida Evidence §
401.2, at 176 (2019 ed.). Authentication for the purpose of
admission is a relatively low threshold that requires evidence
sufficient to support a finding that the photograph in question
is what the proponent claims. See Mullens, 197 So. 3d
at 25. We review conclusions by the trial court regarding
authentication for abuse of discretion. Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

Here the State authenticated photographic exhibit 161
through the testimony of Detective Wallace. Based on his
ability personally to identify both the defendant and Bisbee,
Wallace testified that the photograph depicted those two
men, and *168 he further testified that he had seen the
photograph on Smiley's Facebook page. Wallace did not
testify about any matter beyond his personal knowledge. For
example, he did not address the date of the photograph,
the identity of the photographer, or the circumstances under
which the photo was taken. Wallace's testimony was sufficient
to establish that the photo is what the State claimed it to be:
a photo depicting Smiley and Bisbee, one Wallace had seen
on Smiley's Facebook page. We find no merit in Smiley's
argument that the photo was improperly authenticated.
Notably, Smiley does not challenge the photo's authenticity.
In fact, when asked about Photographic Exhibit 161 on crossexamination, Smiley admitted that the photo depicted Bisbee
and him, and he gave an approximate date that the picture
was taken. Smiley also explicitly acknowledged the photo's
accuracy. We deny relief on this claim.

B. Probative Value vs. Prejudicial Impact
[9] Smiley further contends that the court improperly
admitted photographic exhibits 161 and 162 on the
ground that the photographs’ prejudicial effect substantially
outweighed their probative value. Defense counsel objected
to the admission of photographic exhibit 161 because it
showed Smiley holding a liquor bottle and Bisbee gesturing
as if he had a gun. Photographic exhibit 162 showed Smiley
making the gun gesture and Bisbee smoking what appeared
to be a blunt. We apply an abuse of discretion standard to a
trial court's application of the unfair prejudice test of section
90.403, Florida Statutes (2019). Floyd v. State, 913 So. 2d
564, 574 (Fla. 2005).
Combining aspects of testimony given by John McDonald,
by Samantha Lee, by Mark Wilkerson, and by the defendant
himself, the photographs supported the State's theory that
Smiley and Bisbee were close friends and that Bisbee was
Smiley's accomplice during the Drake murder. Smiley argues
that this probative value was substantially outweighed by the
danger of unfair prejudice caused by the photos. According
to Smiley, the photos had only limited relevance and were
unfairly prejudicial because they portrayed the defendant
“like a thug.”

[10] We disagree that the danger of unfair prejudice from
the photos substantially outweighed their probative value.
The identity and appearance of Smiley's accomplice during
the murder were material issues in the case. And while the
photos may have shown Smiley in an unfavorable light, they
were not inflammatory or improperly directed at the jury's
emotions. See McDuffie v. State, 970 So. 2d 312, 327 (Fla.
2007) (exclusionary rule of unfair prejudice “is directed at
evidence which inflames the jury or appeals improperly to
the jury's emotions” (quoting Steverson v. State, 695 So. 2d
687, 688-89 (Fla. 1997))). “The weighing of probativeness
versus unfair prejudice is best addressed by the trial court,”
Floyd, 913 So. 2d at 575, and the trial court did not abuse its
discretion in admitting these photos. We deny relief on this
claim.

III. Testimony About Smiley's Prior Crimes or Bad Acts
[11] On direct examination, the State elicited testimony from
John McDonald that Smiley had gloves with him at the time
of the Drake murder. On cross-examination, defense counsel
asked McDonald why he thought that Smiley had gloves with
him. McDonald responded: “Well, when we normally operate
like that, we normally use gloves.” The trial court denied
Smiley's subsequent motion for a mistrial, and Smiley now
argues that this was an error that requires reversal for a new
*169 trial. We review the denial of a motion for a mistrial
for abuse of discretion.
[12] “ ‘A motion for mistrial should be granted only when
it is necessary to ensure that the defendant receives a fair
trial.’ In other words, ‘[a] motion for a mistrial should only
be granted when an error is so prejudicial as to vitiate the
entire trial.’ ” Morris v. State, 219 So. 3d 33, 44 (Fla. 2017)
(first quoting Salazar v. State, 991 So. 2d 364, 372 (Fla.
2008), and then quoting England v. State, 940 So. 2d 389,
401-02 (Fla. 2006)). McDonald's vague reference to “when
we normally operate like that” lacked any detail about other
crimes and does not come close to meeting the high standard
that justifies a mistrial. Moreover, the defense itself invited
the response through its open-ended question: “But why do
you think he had [gloves] with him then?” Finally, defense
counsel declined the trial court's offer of a contemporaneous
curative instruction. This claim lacks merit.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

IV. Testimony About Smiley's Interest in the Outcome of
His Case
[13] John McDonald initially denied to law enforcement that
he had been involved in the Drake murder. And even after
he had told investigators about his involvement in the crime,
he considered changing his story again. On redirect, the State
asked McDonald if that was “because Benjamin Smiley is
your cousin?” Following up, the State asked: “Do you want
to see him in trouble?” McDonald responded: “No. He said
that it—they was trying to give him the death penalty.”
Smiley contends that, because this was a bifurcated trial and
the guilt-phase jury was not death-qualified, this comment
improperly alerted the jury to the possibility that Smiley
would be eligible for and receive the death penalty if found
guilty. Smiley argues that the trial court's denial of his request
for a mistrial based on McDonald's statement is error that
warrants a new trial.
We disagree. A fleeting, isolated comment like McDonald's
here does not meet the high standard required for a mistrial.
See Fletcher v. State, 168 So. 3d 186, 207 (Fla. 2015) (“A
comment that is brief, isolated, and inadvertent may not
warrant a mistrial.”). We deny relief on this claim.

V. Vouching for the Death Penalty
[14] Smiley's next argument is about certain comments made
by the prosecutor during the penalty phase voir dire. Because
context is important for evaluating claims of this nature, we
present the relevant exchange in some detail.
The prosecutor prefaced the comments at issue by observing
that there are some people who feel “so strongly about firstdegree murder that if someone commits first-degree murder
there should be no question” that the death penalty should
be imposed. Then, addressing a potential juror who earlier
had described himself as a strong proponent of the death
penalty, the prosecutor asked: “Do you think that just because
someone is convicted of first-degree murder it should be
an automatic death sentence?” The juror started to answer
the question, but the prosecutor interrupted, asking: “[D]o
you understand that in Florida not every case meets the
qualifications for a death penalty?” The prosecutor continued:

We have, you know, 60 death—60 first-degree murder
cases pending in our circuit. Okay? Probably nine of them
are death eligible. So just because you're charged with firstdegree murder does not mean that your case qualifies as
a case that we would seek the death penalty in. Do you
understand that?
In response, the juror indicated that he understood and
answered “yes” when the *170 prosecutor asked if he
“agree[d] with that.” The prosecutor then wrapped up by
noting that the juror had said that he was a “strong proponent
of the death penalty” and by asking: “In this case can you
assure us you are going to listen to the law and hold the State
to the burden that we have proved at least one aggravating
factor beyond a reasonable doubt, you consider the mitigating
circumstances before you would make a sentence of death?”
Defense counsel did not immediately object. The prosecutor
then moved on to question the next potential juror, who
also had earlier described herself as a strong death penalty
proponent. Once again, the prosecutor began by asking if the
juror believed in the automatic imposition of the death penalty
as punishment for first-degree murder. The juror answered
“no.” Then the prosecutor continued: “And do you understand
that in the State of Florida that there are certain criteria
that must be met before the State can even seek the death
penalty?” After the juror answered, “I understand that now,”
the prosecutor said: “All right. So like I said, we have lots
of cases but we don't—there are only cases that meet that—”
At that point, defense counsel objected and asked to approach
the bench.
Defense counsel explained that he anticipated that the
prosecutor was going to repeat her comments about the
number of pending murder cases in the circuit that are eligible
for the death penalty. Defense counsel acknowledged: “I fear
that I did not make a contemporaneous objection at that
time.” But counsel went on to argue that the prosecutor's
comment was “very prejudicial” and counsel ultimately asked
the trial court to strike the venire. The trial court sustained the
objection to the prosecutor's comments but denied the request
to strike the panel.
[15] Smiley now argues that the denial of his motion to strike
the venire was reversible error and that a new penalty phase
is required. We review a decision of the trial court to deny
a motion to strike the jury panel for abuse of discretion. See
Guzman v. State, 238 So. 3d 146, 155 (Fla. 2018).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

To support his argument, Smiley relies on Pait v. State, 112
So. 2d 380 (Fla. 1959), Brooks v. State, 762 So. 2d 879 (Fla.
2000), and Ferrell v. State, 29 So. 3d 959 (Fla. 2010). We
discussed these same decisions in Braddy v. State, 111 So. 3d
810 (Fla. 2012). In Braddy, we described the earlier cases as
ones where prosecutors had violated the principle that “the
State may not add legitimacy to its case by vouching for the
death penalty during its closing argument.” Id. at 847. We
were careful to observe that, in Pait, Brooks, and Ferrell, “the
prosecutors clearly appealed to the jurors to give weight to
the fact that the State had decided to seek the death penalty.”
Id. We emphasized that the prosecutors’ comments in those
cases involved “a direct, unambiguous appeal” to the jury to
give weight to the State's decision. Id.
Even assuming that precedents involving prosecutors’ closing
arguments apply in assessing comments made during voir
dire, the comments at issue here do not violate the principle
we described in Braddy. Viewing the prosecutor's statements
in context, she was conveying the point that the law does not
permit jurors to vote for the death penalty as an “automatic”
punishment for first-degree murder. Just after making the
disputed comment, the prosecutor in fact asked the juror
for assurance that he could hold the State to its burden of
proving an aggravating factor beyond a reasonable doubt. The
prosecutor did not make an argument of any kind, much less
a “direct, unambiguous appeal” for the potential *171 jurors
to give weight to the State's decision to seek the death penalty.
We do not condone the prosecutor's comments. The State
can and should explain the concepts of death eligibility,
aggravation, and mitigation without telling the jury that the
government seeks the death penalty only in a subset of firstdegree murder cases. But the prosecutor's statements here
fall far short of what would be required to justify striking
the venire and starting over again, and the trial court did
not abuse its discretion in denying Smiley's request. (In light
of our resolution of this issue, we need not address the
State's argument that Smiley did not lodge a contemporaneous
objection and therefore waived this claim.) We deny this
claim.

VI. Firearm Arguments During the Penalty Phase
[16] Smiley next argues that the penalty phase jury heard
evidence contrary to the guilt phase verdict and that this
constitutes reversible error. Specifically, Smiley argues that
the trial court should not have allowed the State to argue to the

penalty phase jury that Smiley was the shooter in the Drake
murder. Smiley bases this claim on the fact that, in counts 2
(“Robbery with a Firearm”), 4 (“Aggravated Assault with a
Firearm”), and 5 (“Burglary of a Dwelling with an Assault or
Battery While Armed with a Firearm”), the jury failed to mark
spaces on the verdict form that would have allowed it to make
special findings about Smiley's possession or discharge of a
firearm during the commission of the crime charged in each of
those counts. (Count 3, “Tampering with Physical Evidence,”
is not at issue because the jury found Smiley not guilty as to
that count.)
This argument has no merit. The jury found Smiley guilty
on count 1, “First Degree Felony Murder, as charged in the
indictment.” Count 1 of the indictment explicitly alleged
that Smiley killed Drake by shooting him with a firearm.
Moreover, the trial court instructed the jury that, in order
to convict Smiley on count 1, it would have to find proven
beyond a reasonable doubt that Smiley “was the person who
actually killed Clifford Drake.” The jury's guilty verdict on
this count thus reflects a clear finding that Smiley shot and
killed Drake.
The jury's verdicts on counts 2, 4, and 5 also reflect findings
that Smiley had a firearm during the Drake murder. In count
2, the jury found Smiley guilty of “Robbery with a Firearm, as
charged in the indictment.” In count 4, the jury found Smiley
guilty of “Aggravated Assault with a Firearm, as charged in
the indictment.” And in count 5, the jury found Smiley guilty
of “Burglary of a Dwelling with an Assault or Battery While
Armed with a Firearm, as charged in the indictment.”
Smiley invokes Lebron v. State, 894 So. 2d 849 (Fla. 2005),
but that case does not help him. In Lebron, the jury found
the defendant guilty of felony murder, but also “determined”
that the murder victim was “actually shot by someone other
than” the defendant. Id. at 852. We held that, at sentencing, the
State could not present a police officer's testimony that “the
investigation proved that Lebron shot the victim.” Id. at 855.
Such testimony would be impermissible, we held, because it
would be “directly and precisely to the contrary of a specific
factual finding by a prior jury.” Id. at 854-55.
By contrast, the guilt phase jury in this case did not make a
specific factual finding that someone other than Smiley shot
Drake. On the contrary, by finding Smiley guilty on count 1,
the jury found the opposite—that Smiley killed the victim.
It is not clear why the jury chose not to make the special
findings in counts 2, 4, and 5 as *172 to Smiley's possession

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

or discharge of a firearm. A question from the jury during its
deliberations raises the possibility that the jury believed that
the special findings on those other counts related only to Mark
Wilkerson—not Clifford Drake—as a victim. The jury might
have thought the special finding questions were redundant,
since the guilty verdicts on counts 2, 4, and 5 explicitly
included language to the effect that Smiley committed each
offense “with a firearm.” But we need not speculate about the
jury's thinking. In contrast to the facts of Lebron, the verdict
form in this case does not reflect any specific factual finding
by the jury that Smiley was not the shooter. Therefore, we
deny this claim.

Some of Smiley's arguments mischaracterize the prosecutor's
statements or the law. For example, based on our review of
the State's closing argument, there is no merit to Smiley's
assertions that the State: denigrated Smiley's exercise of
his right to a penalty phase jury trial; argued for an
uncharged aggravating factor; “obfuscated” relevant facts; or
likened Smiley's actions to Jeffrey Dahmer's (the prosecution
mentioned Dahmer only to make the point that the death
penalty is not limited only to the most horrible murderers).
Nor do we find any unfair prejudice in the prosecutor's
unobjected-to statement that: “The death penalty, like any
punishment, is a deterrent.”

[21] We also reject Smiley's claim that the State made an
impermissible “golden rule” argument by saying that Smiley
VII. Penalty Phase Closing Arguments
“has an utter disregard for not only ... the security of your
home, of Drake's home, of Ms. Riley's home, but also he has
A. The State's Comments
an utter disregard for the sanctity of human life.” In contrast
to the State's comment, prohibited golden rule arguments are
[17]
[18]
[19]
[20] Smiley challenges a raft ofones that ask the jurors to put themselves in the victim's
statements by the prosecutor during the penalty phase closing
position and to imagine the victim's *173 pain and terror.
argument, some of which were objected to but many of
See Allen v. State, 261 So. 3d 1255, 1278 (Fla. 2019). The
which were not. Objected-to comments are reviewed for
prosecutor here did not do that.
harmless error, and unobjected-to comments for fundamental
error. Fundamental error is error that reaches down into
[22] Similarly unavailing is Smiley's argument that the State
the validity of the trial itself to the extent that the jury's
erred by telling the jury that their decision “to impose the
recommendation of death could not have been obtained
death penalty on Mr. Smiley cannot be based on sympathy for
without the assistance of the alleged error. Card v. State, 803
Mr. Smiley. And the law says so. ... To base your decision on
So. 2d 613, 622 (Fla. 2001). In Card, another case involving a
sympathy for this defendant would be to forget the person who
defendant's challenge to a mix of objected-to and unobjectedlost his life innocently at the hands of this defendant.” Our
to statements from closing argument, we observed that we
precedent establishes that it is permissible to tell the jury that
do not review challenged comments only in isolation. Rather,
it should not base its decision on sympathy for the defendant.
we consider the closing argument as a whole and determine
See Zack v. State, 753 So. 2d 9, 23-24 (Fla. 2000).
whether the cumulative effect of any errors deprived the
defendant of a fair penalty phase hearing. Id. Our review
[23] Finally, we also are unpersuaded by Smiley's claim
is framed by the background principle that “attorneys are
that the prosecution impermissibly misstated the law on
generally afforded wide latitude while presenting closing
mitigation, denigrated his mitigation evidence, or sought
statements to the jury.” Fletcher v. State, 168 So. 3d 186, 213
to treat Smiley's mitigating evidence as a nonstatutory
(Fla. 2015).
aggravating factor. This claim centers on the State's attempt
Some aspects of this claim merely rehash arguments that we
consider and reject elsewhere in this opinion. For example,
there is no merit to Smiley's arguments that it was improper
for the State to argue that Smiley was the shooter or, relatedly,
that the State invited the jury to “rethink or ignore the
determinations of the guilt phase jury.” Nor, as we explain
later, did the State's unobjected-to treatment of the prior
violent felony aggravating factor fatally skew the jury's
weighing of aggravators and mitigators.

to anticipate Smiley's arguments about the effects of the brain
aneurysms that Smiley suffered as a twenty-year-old, the year
before the Drake and Riley murders. Among other things, the
State said: “There's no dispute this defendant suffered a brain
aneurysm. So what? People suffer brain aneurysms all the
time ... and they manage to go on with life without murdering
people.” The State rhetorically asked whether Smiley “should
not be put to death simply because he suffered a brain
aneurysm? I would submit to you that one has nothing to do
with the other.” And the State argued to the jury that, even

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

prior to the aneurysm, Smiley had engaged in bad behavior:
“the fights, the being kicked out of his home for not following
the rules, the run-ins with the law, the smoking, the drinking,
all of those things.”
We rejected nearly identical arguments in Fletcher v. State,
168 So. 3d 186 (Fla. 2015). The defendant in that case faulted
the prosecution for saying: “[T]he defendant has suffered
from a chronic addiction to drugs in the past. I submit to
you a lot of people have drug addictions. Most of them do
not murder other people.” Id. at 214. The prosecution in
Fletcher also had said: “Now there's a lot of people who
come from tough circumstances, abusive families, but they,
too, most of them, do not go and murder other people.” Id.
This Court found the comments permissible, reasoning that
they were proper arguments going to the weight that the
jury should assign to the asserted mitigation. Id. at 215. The
Court contrasted statements like these with ones that simply
characterized mitigation evidence as “invalid or excuses.”
Id. The logic of Fletcher defeats Smiley's claim that he was
unfairly prejudiced by the comments at issue here.
Nor did the State improperly convert mitigation into an
uncharged aggravating factor. Viewing the prosecution's
comments in context, the State did not argue that the jury
should punish Smiley for any pre-aneurysm misbehavior
or treat Smiley's intelligence as an aggravating factor.
Rather, the prosecution was making a valid argument—the
persuasiveness of which was for the jury to decide—that the
aneurysm could not explain Smiley's actions during the Drake
murder and that, instead, Smiley's actions were knowing and
deliberate.
In sum, we have carefully reviewed the State's entire closing
argument in light of the allegedly improper comments
identified by Smiley, and we find no error or collection of
errors that warrants reversal for a new penalty phase.

B. Defense Comments
[24] Smiley next argues that defense counsel's own closing
argument was so deficient *174 that it constituted
fundamental error or ineffective assistance of counsel. We
have reviewed defense counsel's argument, both on its own
and together with the State ’s closing argument, and we find
no fundamental error.

[25] Ineffective assistance of counsel claims usually are
not cognizable on direct appeal. We have been willing
to depart from this general rule in the rare situation
where ineffectiveness (both performance and prejudice) is
“indisputable from the face of the record before us.” Monroe
v. State, 191 So. 3d 395, 404 (Fla. 2016). The alleged
inadequacies in defense counsel's argument in this case do
not meet that demanding standard. Accordingly, we will not
take up the merits of Smiley's ineffective assistance of counsel
claim here.

VIII. Penalty Phase Jury Instructions and Verdict Form
[26]
[27] Smiley contends that reversible error occurred
because the verdict form and the trial court's jury instructions
allowed the jury to treat each of Smiley's five prior violent
felony convictions as a separate aggravator. Specifically, the
verdict form identified and listed each prior violent felony
individually and asked the jury to record its vote on each.
Smiley claims that this deviated from the verdict form and
jury instructions that we approved in In re Standard Jury
Instructions in Capital Cases, 214 So. 3d 1236 (Fla. 2017).
Smiley further argues that this caused him prejudice by
overstating the number of aggravators proven in his case.
Because Smiley did not object to the verdict form or jury
instructions, we evaluate this claim under the fundamental
error standard. To constitute fundamental error, an alleged
error must reach down into the validity of the sentencing
proceeding itself such that the sentence could not have been
obtained without the assistance of the alleged error. See, e.g.,
Archer v. State, 673 So. 2d 17, 20 (Fla. 1996).
[28] There is nothing in the death penalty sentencing statute
or in our case law that prohibits asking the jury to separately
indicate its findings on any prior violent felony underlying the
prior violent felony aggravator. Indeed, we have observed that
in evaluating the weight of the prior violent felony aggravator,
“the facts upon which the aggravator is based are critical
to our analysis.” Bevel v. State, 983 So. 2d 505, 524 (Fla.
2008). Voting separately on each underlying conviction also
adds clarity to the jury's findings and could be helpful if any
particular conviction is subsequently invalidated. We find no
error in this regard.
[29] But Smiley makes a separate argument that the
presentation of Smiley's prior violent felonies in this case
skewed the jury's weighing of aggravating factors and
mitigating circumstances. Under our case law, “[i]f a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

defendant has multiple convictions for prior violent felonies,
the trial court can find only a single aggravating circumstance,
but it may give that circumstance greater weight based upon
the existence of multiple convictions.” Bright v. State, 90 So.
3d 249, 261 (Fla. 2012). Presumably this applies to the jury's
findings and weighing calculus as well. Thus, even though a
jury is entitled to weigh multiple prior violent felonies more
heavily than a single violent felony, the jury instructions here
were erroneous to the extent they suggested that each prior
violent felony conviction constituted a separate aggravating
factor. Nonetheless, any error falls far short of the high bar
for establishing fundamental error.
The aggravating factors here included Smiley's prior
conviction for the Carmen Riley murder (a capital felony),
a particularly weighty aggravator. The Drake episode *175
involved contemporaneous felony convictions involving
crimes against a separate victim. The verdict form shows that
the jury found this to be a case involving very little mitigation.
Indeed, the verdict form suggests that the jury unanimously
rejected Smiley's principal argument in mitigation, that his
ruptured aneurysms and resulting brain damage lessened
his culpability. Finally, the trial court properly instructed
the jury that the weighing process is not “mechanical or
mathematical” and that the jury therefore “should not merely
total the number of aggravating factors and compare that
number to the total number of mitigating circumstances.”
Under these circumstances, we find no fundamental error.
We also see no merit in Smiley's challenge to the jury
instructions and verdict form as they related to mitigating
circumstances. Smiley bases this claim on alleged deviations
from standard jury instructions approved after his sentencing
proceeding,5 and he points to no independent authority to
support his argument that the trial court committed reversible
error. We therefore deny this claim as well.

IX. Sentencing Order Deficiencies
[30] Smiley argues that the trial court's sentencing order was
deficient in several ways. First, Smiley faults the trial court
for not conducting an analysis under Enmund v. Florida,
458 U.S. 782, 102 S.Ct. 3368, 73 L.Ed.2d 1140 (1982), and
Tison v. Arizona, 481 U.S. 137, 107 S.Ct. 1676, 95 L.Ed.2d
127 (1987). Relatedly, Smiley claims that the trial court
improperly relied on a finding that Smiley was the shooter.

As we explained in Jackson v. State, 575 So. 2d 181 (Fla.
1991), the Supreme Court's decisions in Enmund and Tison
addressed the constitutionality, in multi-participant felony
murder cases, of imposing a death sentence on someone
other than the person who actually killed the victim. We
summarized those cases as standing for the proposition
that “the death penalty may be proportional punishment if
the evidence shows both that the defendant was a major
participant in the crime, and that the defendant's state of mind
amounted to reckless indifference to human life.” Id. at 191.
The Enmund/Tison rule has no bearing on this case. As we
have explained, the guilt phase jury found that Smiley killed
Drake, and that finding is supported by competent, substantial
evidence in the record. Therefore, there was no error in the
trial court's failure to perform an Enmund/Tison analysis or
in the trial court's finding that Smiley was the shooter in the
Drake murder.
[31] Smiley next contends that the trial court overcounted
the number of aggravating factors proven in Smiley's case.
Smiley argues that, after performing the requisite merger
analysis, the various aggravating factors should have been
treated as two: the prior capital or violent felony aggravator,
and the felony murder aggravator (murder “in the commission
of” an enumerated felony). In its sentencing order, the trial
court instead grouped the aggravating factors in the following
way: one combined aggravator for the two prior convictions
involving the Riley murder; one combined aggravator for
the prior convictions involving the robbery and assault of
Mark Wilkerson and for the fact that the Drake murder was
committed during the robbery of Wilkerson; one combined
aggravator for the contemporaneous conviction for burglary
with an assault or battery while armed and for the fact that the
Drake murder was committed during a *176 burglary; and
one aggravator for the fact that the murder was committed for
pecuniary gain.
We find that any error in the trial court's merger analysis
was harmless. As the trial court found, this was a highly
aggravated murder, given both the contemporaneous crimes
committed against Mark Wilkerson and, most importantly,
Smiley's previous conviction for the Riley murder. All of the
facts underlying the aggravating factors proven in this case
—regardless of how those factors are grouped for merger
purposes—were properly subject to consideration by the trial
court. All of those facts would have added weight to whatever
subset of aggravating factors remained at the conclusion
of any different merger analysis. And balanced against this
aggravation, the trial court found very little mitigation.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

Indeed, the trial court explicitly acknowledged that its
balancing of aggravation and mitigation was qualitative not
quantitative, and it found that “the nature and quality of the
mitigation pales in comparison to the proven aggravating
factors.” Under these circumstances, we conclude that there
is no reasonable possibility that, absent any error in the trial
court's merger analysis, the court would have imposed a lesser
sentence. See, e.g., Lukehart v. State, 776 So. 2d 906, 925 (Fla.
2000) (applying harmless error analysis to claim of improper
doubling of aggravating factors).

requirement by bundling proposed mitigating circumstances
into categories of related conduct or issues and addressing
them accordingly. In fact, we have encouraged trial courts to
do so. See Mullens, 197 So. 3d at 30. And we allow trial courts
to exercise their discretion to avoid repeatedly addressing
proposed mitigating circumstances that are redundant. See
Foster v. State, 778 So. 2d 906, 920 (Fla. 2000). Finally,
in Rogers v. State, 285 So. 3d 872, 890 (Fla. 2019),
we clarified that a trial court's written sentencing order
need not “expressly articulate why the evidence presented
warranted the allocation of a certain weight to a mitigating
[32] [33] Finally, Smiley claims that the trial court failed circumstance.” Our precedents have aimed to avoid imposing
to properly consider each proposed nonstatutory mitigating
on trial courts overly formalistic requirements, while at the
circumstance and that this requires resentencing. Smiley
same time ensuring that sentencing orders comply with the
does not identify any particular nonstatutory mitigating
dictates of section 921.141(4), Florida Statutes (2019),7 and
circumstance that the trial court failed to consider. Instead, the
contain enough specificity to enable meaningful appellate
claimed error goes to the form of the trial court's sentencing
review.
order. Smiley claims that the sentencing order is inadequate
under the standards this Court established in Campbell v.
In this case, the trial court's sentencing order does not address
State, 571 So. 2d 415 (Fla. 1990), receded from in part by
Smiley's proposed nonstatutory mitigating circumstances
Trease v. State, 768 So. 2d 1050, 1055 (Fla. 2000). We review
with the specificity that Campbell and its progeny require. As
alleged deficiencies in a sentencing order for harmless error.
we have suggested, the problem is not that the order fails to
See Mullens v. State, 197 So. 3d 16, 30 (Fla. 2016).
address the nonstatutory mitigators in exactly the format or
The trial court's sentencing order introduces its analysis of
Smiley's proposed mitigating circumstances saying: “The
Court examined the evidence pertaining to the Defendant's
life prior to the age of seventeen (when he left home), after
he left his home, the reported brain aneurysm(s), and the
Defendant's conduct after the brain injury.” The Court then
evaluated each of Smiley's proposed statutory mitigating
circumstances in turn. However, when it got to the catchall nonstatutory mitigating circumstances, the trial court
addressed all of them in a single paragraph. The court
wrote that it “examined the evidence presented through the
testimony” of Smiley's mitigation witnesses, evaluated that
testimony to consider “the matters related to the Defendant's
character, background, life, and the circumstances of the
offense,” and “concluded that this circumstance should be
accorded moderate weight.” Earlier in its order, the trial court
had summarized the testimony offered by each of Smiley's
witnesses.
This Court has long reaffirmed Campbell’s requirement that
the trial court's sentencing order must expressly evaluate
each mitigating circumstance proposed by the defendant to
determine whether it is supported by the evidence and, in
the case of nonstatutory factors, whether it is truly of a
mitigating nature.6 A trial court may *177 comply with this

order that Smiley proposed in his sentencing memorandum.
Instead, the problem is that Smiley's proposed nonstatutory
mitigators are not so substantively similar that they could be
dealt with in a single, catch-all fashion. To give just a few
examples: Smiley argued that his stepfather subjected him to
overly harsh (though not abusive) corporal punishment; that
Smiley himself has been a good father to his own son; that
he persevered in his education and worked hard at his jobs;
and that he has conducted himself well since his incarceration.
None of this is to say that the trial court had to treat any
of these circumstances as mitigating in Smiley's case or to
assign them any particular weight. But Smiley's proposed
mitigators are too substantively dissimilar from each other to
be addressed as an undifferentiated whole.
Nonetheless, because there is no reasonable possibility that
Smiley would have received a lesser sentence absent the
trial court's error, we conclude that the error was harmless.
Smiley's previous conviction for the Riley capital felony
and for the contemporaneous violent felonies committed
against Mark Wilkerson made this a highly aggravated
case. Moreover, the sentencing order leaves no doubt
that the trial court was aware of and considered the
nonstatutory mitigating circumstances that Smiley proposed.
Significantly, the sentencing order shows that the trial court—
like the penalty phase jury—was unpersuaded that Smiley's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

aneurysms and resulting brain injury constituted significant
mitigation. The trial court found that Smiley had established
the statutory mitigators for extreme mental or emotional
disturbance and for substantially impaired *178 ability to
conform to the law, but the court still assigned each of these
mitigators only “little weight.” This was the heart of Smiley's
case for mitigation, and the trial court was largely unmoved
by it. On this record, there is no reasonable possibility that
disaggregating Smiley's proposed nonstatutory mitigation—
which the trial court assigned “moderate weight” in the
aggregate—could have changed the trial court's weighing
calculus and resulted in a life sentence.

X. Sufficiency of the Evidence
[34] Although Smiley does not challenge the sufficiency
of the evidence to sustain his conviction for first-degree
felony murder, we must independently review the record to
determine whether competent, substantial evidence supports
the conviction. Kirkman v. State, 233 So. 3d 456, 469 (Fla.
2018); Fla. R. App. P. 9.142(a)(5). That standard is easily
satisfied here. The predicate felonies underlying the felony
murder charge were robbery and burglary. Mark Wilkerson
testified that Smiley shot and killed Drake and that Smiley
stole Wilkerson's cell phone and forced his way into the Drake
home. John McDonald testified that the criminal episode had
the goal of stealing money from a safe in the Drake home and
that Smiley confessed to the Drake murder. This testimony
was corroborated by DNA evidence linking Smiley to the
backpack found at the crime scene and by the cell phone
records showing that Wilkerson's stolen phone was used in
a three-way call with McDonald and Samantha Lee shortly
after the murder. Competent, substantial evidence supports
Smiley's first-degree felony murder conviction.

XI. Proportionality of Smiley's Death Sentence

aggravating factors and mitigating circumstances. We accept
the weight that the trial court has given to those factors
and circumstances. And we consider the totality of the
circumstances and compare the case with other capital cases.
Elsewhere in this opinion we have detailed the trial
court's findings on aggravation and mitigation. Suffice it
to say that the trial court gave great weight to Smiley's
prior capital felony conviction for the Riley murder and
to Smiley's contemporaneous convictions for the felonies
Smiley committed against Mark Wilkerson. Moreover,
though the trial court credited the fact that Smiley had
suffered a severe brain trauma as a result of his ruptured
aneurysms, the court gave little weight to Smiley's proposed
mitigators for extreme emotional disturbance and inability to
conform his conduct to the requirements of the law. Smiley's
nonstatutory mitigating circumstances, which the trial court
assigned moderate weight, were far from compelling. All in
all, Smiley's felony murder conviction was highly aggravated
—particularly because of his prior conviction for the Riley
murder—and only lightly mitigated.
Recently, in Newberry v. State, 288 So. 3d 1040 (Fla. 2019),
we upheld a death sentence imposed on a defendant who
committed a robbery/murder and whose aggravators and
mitigators were qualitatively similar to Smiley's. Our decision
in Newberry cited multiple similar cases in which we upheld
the imposition of a death sentence. See id. at 1049-50. Death
is a proportionate punishment in Smiley's case.
*179 In light of the foregoing, we affirm Smiley's conviction
for first-degree felony murder and his sentence of death.
It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ,
JJ., concur.

LABARGA, J., concurs in result.
[35] [36] It has been this Court's practice in death sentence
direct appeals to conduct a proportionality review to ensure
All Citations
that the defendant's crime falls within the most aggravated
295 So.3d 156, 45 Fla. L. Weekly S137
and least mitigated of murders. This review is qualitative,
not quantitative—we do not simply tally the number of

Footnotes

1
2

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
Spencer v. State, 615 So. 2d 688 (Fla. 1993).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

Smiley v. State, 295 So.3d 156 (2020)
45 Fla. L. Weekly S137

3

4

5
6

7

The trial court assigned the following weights to the aggravating factors: (1) Smiley was previously convicted of another
capital felony (the murder of Carmen Riley) and (2) Smiley was previously convicted of a felony involving the use or
threat of violence to the person (robbery with a firearm involving Carmen Riley) (merged, great weight); (3) Smiley was
previously convicted of a felony involving the use or threat of violence to the person (robbery with a firearm involving
Mark Wilkerson) and (6) Smiley committed the first-degree murder while engaged in a robbery (of Mark Wilkerson)
(merged, great weight); (4) Smiley was previously convicted of a felony involving the use or threat of violence to the
person (aggravated assault of Mark Wilkerson) (no weight); (5) Smiley was previously convicted of a felony involving the
use or threat of violence to the person (burglary with an assault or battery while armed involving Clifford Drake and Mark
Wilkerson) and (7) Smiley committed the first-degree murder while engaged in a burglary of a dwelling with an assault
or battery while armed with a firearm (involving Clifford Drake and Mark Wilkerson) (merged, moderate weight); (8) the
first-degree murder was committed for pecuniary gain (substantial weight).
The trial court assigned the following weights to the mitigating circumstances: (1) Smiley has no significant history of prior
criminal activity (moderate weight); (2) Smiley committed the first-degree murder while under the influence of extreme
mental or emotional disturbance (little weight); (3) the capacity of Smiley to appreciate the criminality of his conduct or
to conform his conduct to the requirements of the law was substantially impaired (little weight); (4) Smiley's age at the
time of the crime (little weight); (5) the existence of any other factor(s) in Smiley's character, background, life, or the
circumstances of the offense that would mitigate against the imposition of the death penalty (moderate weight).
Smiley cites the verdict form approved by this Court in 2018 in In re Standard Criminal Jury Instructions in Capital Cases,
244 So. 3d 172 (Fla. 2018).
Campbell also requires the trial court's order to: “(2) assign a weight to each aggravating factor and mitigating
factor properly established; (3) weigh the established aggravating circumstances against the established mitigating
circumstances; and (4) provide a detailed explanation of the result of the weighing process.” Rogers v. State, 285 So. 3d
872, 889 (Fla. 2019) (quoting Orme v. State, 25 So. 3d 536, 547-48 (Fla. 2009)).
Section 921.141(4) requires the following:
In each case in which the court imposes a sentence of death, the court shall, considering the records of the trial and
the sentencing proceedings, enter a written order addressing the aggravating factors set forth in subsection (6) found
to exist, the mitigating circumstances in subsection (7) reasonably established by the evidence, whether there are
sufficient aggravating factors to warrant the death penalty, and whether the aggravating factors outweigh the mitigating
circumstances reasonably established by the evidence.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

